<html>
<title> - THE ADMINISTRATION'S FY 2006 BUDGET AND PRIORITIES OF THE U.S. ARMY CORPS OF ENGINEERS, THE NATIONAL RESOURCES CONSERVATION SERVICE, THE TENNESSEE VALLEY AUTHORITY, AND THE ST. LAWRENCE SEAWAY DEVELOPMENT CORPORATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
  THE ADMINISTRATION'S FY 2006 BUDGET AND PRIORITIES OF THE U.S. ARMY 
 CORPS OF ENGINEERS, THE NATIONAL RESOURCES CONSERVATION SERVICE, THE 
  TENNESSEE VALLEY AUTHORITY, AND THE ST. LAWRENCE SEAWAY DEVELOPMENT 
                              CORPORATION

=======================================================================

                                (109-5)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
20-873                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)




            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           JOHN T. SALAZAR, Colorado
STEVEN C. LaTOURETTE, Ohio           JERRY F. COSTELLO, Illinois
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          BRIAN BAIRD, Washington
ROBERT W. NEY, Ohio                  TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           BRIAN HIGGINS, New York
HENRY E. BROWN, Jr., South Carolina  ALLYSON Y. SCHWARTZ, Pennsylvania
BILL SHUSTER, Pennsylvania           EARL BLUMENAUER, Oregon
JOHN BOOZMAN, Arkansas               ELLEN O. TAUSCHER, California
JIM GERLACH, Pennsylvania            BILL PASCRELL, Jr., New Jersey
TOM OSBORNE, Nebraska                RUSS CARNAHAN, Missouri
TED POE, Texas                       NICK J. RAHALL, II, West Virginia
CONNIE MACK, Florida                 ELEANOR HOLMES NORTON, District of 
LUIS G. FORTUNO, Puerto Rico         Columbia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
VACANCY
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Jacquez, Hon. Albert S., Administrator, Saint Lawrence Seaway 
  Development Corporation, Washington, D.C.......................     9
 Knight, Hon. Bruce I., Chief, Natural Resources Conservation 
  Service, Washington, D.C.......................................     9
 McCullough, Hon. Glenn L., Jr., Chairman, Tennessee Valley 
  Authority, Knoxville, Tennessee................................     9
 Strock, LTG Carl A., Chief of Engineers, U.S. Army Corps of 
  Engineers, Washington, D.C.....................................     9
 Woodley, Hon. John Paul, Jr., Principal Deputy Assistant 
  Secretary of the Army (Civil Works), U.S. Department of the 
  Army, Washington, D.C..........................................     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Blumenauer, Hon. Earl, of Oregon.................................    47
Carnahan, Hon. Russ, of Missouri.................................    49
Costello, Hon. Jerry F., of Illinois.............................    50
Salazar, Hon. John, of Colorado..................................    70

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Jacquez, Hon. Albert S..........................................    52
 Knight, Hon. Bruce I............................................    59
 McCullough, Hon. Glenn L........................................    64
 Strock, LTG Carl A..............................................    71
 Woodley, Hon. John Paul, Jr.....................................    80

                       SUBMISSIONS FOR THE RECORD

 Knight, Hon. Bruce I., Chief, Natural Resources Conservation 
  Service, Washington, D.C.:

  USDA/NRCS Watershed Dams that will Reach the End of their 
    Design Life, chart...........................................    30
  Watershed Rehabilitation Needs, FY2004-2009, chart.............    31


  THE ADMINISTRATION'S FY 2006 BUDGET AND PRIORITIES OF THE U.S. ARMY 
 CORPS OF ENGINEERS, THE NATIONAL RESOURCES CONSERVATION SERVICE, THE 
  TENNESSEE VALLEY AUTHORITY, AND THE ST. LAWRENCE SEAWAY DEVELOPMENT 
                              CORPORATION

                              ----------                              


                        Thursday, March 10, 2005

        House of Representatives, Subcommittee on Water 
            Resources and Environment, Committee on 
            Transportation and Infrastructure, Washington, 
            D.C.

    The subcommittee met, pursuant to call, at 9:55 a.m., in 
Room 2167, Rayburn House Office Building, Hon. John J. Duncan, 
Jr. presiding.
    Mr. Duncan. I want to go ahead and call the subcommittee to 
order. I am going ahead here, ahead of everybody, because I am 
going to at least get my statement into the record.
    Unfortunately, we are going to have to break here in just a 
few minutes for a journal vote. But I want to welcome everyone 
to the second of our fiscal year 2006 budget hearings. 
Everybody is all worked up about the budget. Everybody is 
coming to see us, and I tell people that the House committees 
make some changes, the Senate committees make some changes, the 
Budget committees, the Appropriations committees, and then we 
have supplemental and omnibus appropriations. There are going 
to be a lot of changes before everything is said and done by 
the end of the year.
    I want to welcome all the witnesses. Today we will hear 
from officials representing the Army Corps of Engineers, the 
Tennessee Valley Authority, the Natural Resources Conservation 
Service, and the Saint Lawrence Seaway Development Corporation 
on their budgets and priorities for fiscal year 2006. All of 
these agencies are involved in some aspect of managing the 
Nation's water resources, primarily for transportation, flood 
control, ecosystem restoration, and electric power generation, 
and I appreciate all of you taking time out of your very busy 
schedules to be here with us this morning.
    While I support the President's efforts to control Federal 
spending, I do have questions and do not support some of the 
cuts of investments in America that have proven economic 
benefits, particularly investments in transportation 
infrastructure. This view is shared by Thomas Donahue, 
President and CEO of the U.S. Chamber of Commerce, who said 
recently: ``The Nation's transportation system is the lifeblood 
of our economy. Without additional investment in our 
infrastructure, our system of commerce is impaired, our 
mobility is restricted, our safety is threatened, our 
environment is endangered, and our way of life is 
compromised.'' And I agree with that statement by Mr. Donahue. 
In fact, I just met with him a few minutes ago.
    Just yesterday, the American Society of Civil Engineers 
released their 2005 Report Card for America's infrastructure. 
They gave the condition of America's navigable waterways a 
grade of D-. That is down from the D+ waterways received in 
2001. The Budget Request says we can not pay for everything. I 
agree. The Request says we need to establish priorities, and I 
certainly agree with that. Unfortunately, the priorities in 
this Budget Request are not based on what many people feel is a 
coherent transportation, flood control, or ecosystem 
restoration policy.
    For example, in allocating funding to the Corps of 
Engineers for operating and maintaining our waterways, the 
Budget Request would eliminate funding for many tributary 
waterways because they do not carry as much cargo as the main 
stem waterways. This rationale demonstrates a fundamental 
misunderstanding of how the inland waterways system works by 
ignoring the fact that two-thirds of all tonnage on the system, 
two-thirds, either begins or ends on these tributary waterways. 
If you eliminate them, you threaten the economic viability of 
the entire waterway transportation system.
    For the construction of Corps navigation and flood damage 
reduction projects, the Budget Request proposes to allocate 
most funding based on the ratio of a project's remaining 
benefits to remaining costs. This method of establishing 
priorities puts a large thumb on the scale in favor of projects 
that are near completion because water resource projects often 
will have no benefits until the project is completed. If you 
compare 100 percent of the benefits to less than 100 percent of 
the costs, the benefit-to-cost ratio will appear large.
    Finishing ongoing projects is important, but it can not be 
the only policy basis for allocating funding, particularly when 
you are talking about projects that are part of an intermodal 
transportation system. A budget based on transportation policy 
would look at which projects are most necessary for the 
efficient functioning of our intermodal transportation system 
and place priorities on those projects. If this Request to 
evaluate waterways projects is part of our intermodal 
transportation system, it would recommend funding for the 
ongoing construction of the Chickamauga Lock. Secretary Woodley 
came at my request and, I think, learned during his visit last 
year that the Tennessee River is a vital part of the 
transportation system in America. If the Chickamauga Lock 
fails, the Tennessee River will be closed to transportation, 
cutting off Knoxville, Oak Ridge, and other communities to 
waterborne transportation.
    If only half of the cargo that is handled by this lock 
switches to trucks, an additional 45,000 tractor trailer trucks 
will be congesting the roads of East Tennessee. I want to say 
that again. If only half of the cargo handled by this lock 
switches to tractor trailer trucks, an additional 45,000 large 
trucks, tractor trailer trucks will be congesting the roads of 
East Tennessee. For Oak Ridge it means that equipment that is 
too large for truck transportation will not be delivered at 
all. This is unacceptable transportation policy and is 
unacceptable on national security grounds as well.
    I also would like to point out that even applying the 
prioritization system adopted by this Budget Request, the 
Chickamauga Lock would be eligible for funding. If we fail to 
construct a replacement lock, the lock will fail. Everyone 
agrees with that, everyone. Compared to letting the lock fail, 
the remaining benefits of building the authorized 600 foot lock 
are 4.2 times greater than the remaining costs associated with 
the project, even using a 7 percent discount rate used in the 
Budget Request, instead of the 6.1 percent discount rate used 
in the Chief's report, which under current law is the correct 
discount for the evaluation of this project. That is a little 
bit technical, but this means that Chickamauga Lock has a 
higher remaining benefits to remaining cost ratio than 30 
projects funded by the budget request, and a higher net 
benefits to total cost ratio than 58 of the projects funded by 
the budget request.
    I have heard the excuse that no funding could be allocated 
to the Chickamauga Lock because the Chief's report is still 
under review at OMB. OMB has had this report under review since 
January 15th of 2003, even though the Chief of Engineers 
completed his technical report on May 30th of 2002 and Congress 
authorized the project on February 20th of 2003. Claiming you 
couldn't fund the project because you did not choose to 
complete a review of the report is like my son telling me he 
couldn't finish his homework because he didn't choose to change 
the lightbulb on his desk lamp. I don't want to hear anymore 
excuses about this.
    The Saint Lawrence Seaway Development Corporation is a 
transportation agency that manages the U.S. part of the Saint 
Lawrence Seaway. There are transportation policy issues raised 
by the Seaway's budget request as well. In particular, how does 
the proposal in the Budget Request to impose tolls on the use 
of the Seaway consistent with DOT's efforts to promote 
increased use of the Seaway to help relieve congestion in other 
transportation modes? Also, I am concerned about the policy 
choices implied in the allocation of funding for flood control.
    The Budget Request for the Corps arbitrarily sets a high 
priority for dam safety projects, without any analysis 
comparing the risk of flooding if those projects with the risks 
of other flood control projects. For other flood control 
projects, a strict benefit-cost analysis does not recognize the 
policy objective of providing all communities with at least a 
100 year level of flood protection, even if the community is 
small or has no high cost housing, reducing the benefits 
associated with the project. Instead of providing flood 
protection to small communities, the Budget Request would zero 
out funding for the small watershed program of the Natural 
Resources Conservation Service, even though these are small 
cost-effective projects that protect our water and our land in 
rural America. The policy basis for recommending construction 
of aquatic ecosystem restoration projects by the Corps also is 
problematic.
    I must express concern with one ecosystem restoration 
project recommended by the Corps' budget: the Modified Water 
Delivery Project in Florida. Congress has not authorized the 
Corps of Engineers to fund this Department of Interior project, 
nor do we intend to. I am surprised that the Budget recommends 
unauthorized funding.
    Finally, I want to comment on TVA's budget for fiscal year 
2006. There is no agency more important to the people of my 
district than the Tennessee Valley Authority. Unlike the other 
agencies before us today, TVA is self-financed, drawing its 
revenues from the eight million people in the seven States that 
it supplies with electricity. In recent years, in the interest 
of sound business practices, TVA has emphasized reducing its 
statutory debt, which currently is more than $23 billion. There 
has been some dispute within TVA's board about whether TVA is 
doing all it can to cut costs and reduce debt. I plan to look 
closely into that issue.
    Let me just say I went ahead, because of our journal vote, 
with my statement and also because it was a little longer than 
usual. We started a little bit early. I am going to let Ms. 
Johnson either choose to go ahead with her statement now or we 
will break for the vote, whichever you prefer.
    I don't know whether you have had time to catch your breath 
or not, but I just went ahead and wanted to get my statement in 
the record and get that part of the hearing out of the way. So 
now that I have had my say, do you want to go ahead now?
    Ms. Johnson. Yes, I will go ahead.
    Mr. Duncan. All right.
    Ms. Johnson. Thank you, Mr. Chairman. I was headed to the 
Capitol for this 10:00 vote and thought we would come later, so 
that is why I was running a little late, I had to reverse 
things. But I thank you for holding this hearing today on the 
fiscal year 2006 budget and its impact on the agency programs 
and priorities within the jurisdiction of this subcommittee.
    As I stated in our last hearing on budgets and priorities 
for Environmental Protection Agency and the National Oceanic 
Atmospheric Administration, the Federal agency witnesses here 
today will have a difficult time convincing me that this budget 
is adequate to meet the Nation's needs. The funding levels and 
presidential priorities reflected in this budget fail to uphold 
the Nation's priorities of protecting the environment, 
increasing investment in the critical water-related 
infrastructure, and taking the steps necessary for continued 
economic prosperity.
    The President's budget takes a shortsighted view of the 
Nation's economy by making improvement cuts in programs that 
have proven essential for the Nation's long-term economic 
health in order to make a short-term savings in Federal 
spending. This Administration fails to recognize a continued 
investment in our Nation's water-related infrastructure is a 
key element for stimulating improving the U.S. economy, one 
that not only helps current generations, but provides for 
continued economic growth, job creation, and economic stability 
for generations to come. Our current economy is built on the 
investments of our predecessors. Cutting investment today and 
exploding the future deficits will combine to deny economic 
opportunity to succeeding generations.
    For example, the President's budget eliminates funding for 
the Dallas Flood Way Extension Project in Texas. The flood 
control project along the Trinity River would provide critical 
flood protection for portions of downtown Dallas and the 
neighborhoods of Oak Cliff and West Dallas, raising the level 
of flood protection to standard flood protection levels and 
protecting the lives and livelihoods of some of those 12,500 
homes and businesses. I have seen water up to their ceilings, 
where you couldn't even see the windows in some of these homes.
    The City of Dallas estimates that the Flood Way Extension 
Project, when completed, would prevent an excess of $8 billion 
in flood damage and would avoid the potential of massive 
economic disruptions and relocations that would occur should 
this area experience widespread flooding. In addition, the 
Flood Way Extension Project calls for the restoration of 123 
acres of critical habitat and wetlands along the Trinity River 
and would provide additional recreational opportunities for the 
citizens and visitors to the Dallas metropolitan area.
    And this is just one example in my district of the impact 
of the Corps' budget. I am certain that many members of this 
committee could identify similar projects of importance that 
are targeted for elimination or reduction by the budget 
proposal. These cuts are not limited to the Corps of Engineers, 
but also to the budgets of other Federal agencies represented 
here today.
    The small watershed program in the Natural Resource 
Conservation Service is completely eliminated. There is no 
consideration of termination costs, no consideration of State 
or local investment. This budget simply walks away from rural 
communities, and I hope the witnesses will listen to the 
concerns over the cuts proposed by the President's budget and 
will understand the real impact behind these numbers and will 
convey to the White House and OMB the real needs for continued 
investment in our Nation's economy. The implications of 
insufficient investment in our Nation's water-related 
infrastructure to both current and future economies are 
massive. This committee understands the potential impact; 
however, clearly, we need to do a better job of educating this 
Administration on this point.
    Thank you, Mr. Chairman.
    Mr. Duncan. Well, thank you, Ms. Johnson.
    And as I said, unfortunately, we are going to have to run 
for this vote, so we will be in recess for about 15 minutes. 
Thank you.
    [Recess.]
    Mr. Duncan. I want to call the subcommittee back to order. 
I gave my opening statement and Ms. Johnson gave her opening 
statement before we broke for the vote. That means that next we 
would go to Mr. Osborne.
    Mr. Osborne, do you have an opening statement?
    Mr. Osborne. No.
    Mr. Duncan. Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    I think my constituent, Yogi Berra, coined the phrase best 
when he said it's like deja vu all over again. The annual 
battle over the Army Corps' budget begins again. It is easy for 
OMB to advocate for big cuts in the Corps' budget from their 
ivory tower here in Washington, D.C., but on the ground, in 
districts like yours, Mr. Chairman, and mine, and in all the 
rest of us here, the cuts to the Corps' budget threaten to hold 
up countless important projects. For example, the fiscal year 
2006 budget proposal zeros out funding for the Peckman River 
Flood Control Feasibility Study. This is a project authorized 
by this very subcommittee. People in my district are up in arms 
about this matter of life and death. The flooding along the 
Peckman River was so bad during Hurricane Floyd that the 
community lost one of its residents.
    Molly Anne's Brook Flood Control Project has been severely 
impacted by budget cuts. This project was completed, for the 
most part, four years ago, but Floyd could not have hit at a 
worse time. The Corps was at the ending stages of the project. 
When the storm hit, it caused tremendous damage to the project. 
If another storm as significant as Hurricane Floyd comes 
through this fall, this incomplete project would not prevent as 
much damage as it should, obviously.
    There is one additional item which I would like to bring to 
your attention. Many of the cities along the Passaic River are 
badly in need of new commercial, industrial, and residential 
investment, and have abundant and underutilized waterfront 
land. Much of this property, however, is now of limited value 
because past industrial activity has turned the Passaic River 
into one of the most contaminated rivers east of the Euphrates.
    Now, how in God's name can we be spending for 
infrastructure in Iraq when we are failing to address those 
very same needs in our own Country, in our own backyards? There 
is no rationale whatsoever. So it is deja vu, as Yogi would 
say.
    The ongoing Lower Passaic River Restoration Project is 
pooling a host of resources from your agencies, the EPA and the 
State of New Jersey, to achieve the best results for this 
comprehensive cleanup in the shortest amount of time possible. 
I believe that the Lower Passaic Restoration Project, while 
solution-oriented, will ensure that polluters who are still 
around will pay their fair shares of restoration costs. And we 
have come to an agreement with those polluters, staying out of 
the courts, the very thing that down the street is always 
harping about. We have done it in New Jersey; it is the model 
for the entire Country. We can not do it without the assistance 
of the Corps. We need to work together to make sure the Corps 
is putting up their fair share, as we want to move forward at a 
more rapid pace, obviously.
    So, Mr. Chairman, I have serious concerns about this 
budget, as do all of us, and I wish the panel lots of luck in 
defending the Administration's request today; they are going to 
need it. Thank you.
    Mr. Duncan. Well, thank you very much, Mr. Pascrell. We are 
always honored to have the chairman of the full Science 
Committee, the immediate past chairman of this subcommittee, 
Mr. Boehlert, with us. Mr. Boehlert, do you have a statement.
    Mr. Boehlert. No, Mr. Chairman.
    Mr. Duncan. All right.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I was prepared for some cuts in this budget, and I think 
everyone was prepared for that; it has been the rule rather 
than the exception, but particularly this year were we ready 
for it. But I think it is fair to say that the President's 
budget assigns more than its fair share of cuts to this budget.
    Perhaps I shouldn't complain; the one new project started 
is in the District of Columbia. But that is a Federal project 
which was an offer that the President almost could not refuse. 
When you look at this map here, this is a flood control project 
on a floodplain which involves areas that include virtually the 
doorstep of the Capitol and the White House. So if that is what 
it takes to get a new project, that you have to come to the 
official Federal presence in order to get a project started up, 
I can only express my condolences to the American people, 
because it looks as though you live in a floodplain anywhere 
else, you are out of luck.
    Now, if I may say so, nobody lives here. Nobody lives in 
the Capitol; somebody does live in the White House. And I am 
not objecting to this project by any means. I think this 
project should have started a long time ago. I think what has 
probably put it in the budget this year is you have got the 
World War II Memorial right down there now, and I think the 
Government would be sorely embarrassed if, after putting this 
project off for decades, we had a terrible flood--the Potomac 
River, as we all knows, flows right by this area--if we had a 
flood that, in fact, engulfed part of the mall and part of our 
great monuments. But as grateful as I am to have this matter 
dealt with finally, I can only accept this project with deep 
regret for the many projects which are not only not started, 
but are left in the lurch.
    One of the worse things you can do, particularly if you 
want to save money is to take a project you have already 
started, already invested in, and walk away from it. And that 
is what this budget mandates throughout for many projects that 
have already started. And some of these are flood control 
projects, where people live. These are huge and dangerous cuts. 
And walking away from projects where you have already invested, 
already done the work is the functional equivalent of a 
contractor walking off the job, except that this contractor is 
the United States of America, it may be the Corps forced to 
leave a project. This is irresponsible. Most of the projects we 
have to pick up at some point later. And I recognize that there 
are huge and horrible tradeoffs here, but I can not understand 
that kind of tradeoff with greater costs in the future, and 
probably some loss and often considerable loss of the 
investment the Government has already made. I predict layoffs 
here of skilled personnel. I don't see how you can have these 
kinds of cuts while in fact keeping this personnel. That I 
particularly regret, because we are already losing very skilled 
personnel in the Federal service, so much so that another 
committee I am on is very troubled that we are unable to 
replace them, especially at the levels where the Corps and 
other agencies involved work.
    Finally, let me note, Mr. Chairman, that on the floor 
today, of course, we intend to finish the transportation 
infrastructure bill. Now, everybody recognizes, perhaps because 
everybody rides over a road, the importance of the highway 
infrastructure to any great nation. The real difference between 
an underdeveloped nation and a developed nation is often roads 
that allow the economy to go. This budget does not show that 
there is an understanding of how important the waterways 
infrastructure is to our Country, as if it doesn't matter. We 
are, I think, taking economies that are foolish. I know 
everything costs money, but I think to make these huge cuts out 
of one budget is nothing short of irresponsible.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much.
    Mr. Gilchrest.
    Mr. Gilchrest. Very briefly, Mr. Chairman. Thank you. And I 
want to thank the witnesses for coming to testify today. I know 
your sense of anticipation to testify before Congress is 
nothing short of your anticipation of probably Christmas 
morning or things like that.
    What I would like to do just very briefly, because I have 
another meeting at 11, so I might not get my questions in, but 
I just want to make my sense of things.
    Depending on where you live, depending on what your 
geography is, and depending on how long you have lived there 
pretty much depends on what your economy needs or you think 
your economy needs. I come from a very rural area. Agriculture 
is predominant, fishing, tourism, hunting, etc. What I would be 
interested in is having the Corps, NRCES, whoever, maybe work 
together on a cost benefit analysis to see how much or what the 
difference is between nature's infrastructure and human 
infrastructure costs are.
    For example, what does it cost to build and maintain a 
sewage treatment system to cleanse the water before it goes 
into a stream, and what does it cost for a forested wetland to 
do the same kind of thing? For example, in the Chesapeake Bay, 
the C&D Canal. What does it cost to maintain the C&D Canal now, 
at 35 feet, versus what would it cost just to let it silt in a 
little bit, then actually you would have a barge route there 
for the Port of Baltimore.
    Flood control has been mentioned already. What does it cost 
for dams and berms and all these other prostheses that we put 
in versus a forested wetland or a wetland or open space? In 
Ocean City in Assoteague, what does it cost for beach 
replenishment on an annual basis from now until the sun burns 
out, I guess, versus taking a few jetties down and let that 
sand naturally migrate back and forth?
    So I think it would be interesting to see the cost-benefit 
analysis of what we put into things and what benefit we get 
back in human infrastructure versus a cost-benefit analysis 
when we allow open space or try to restore or expand open space 
of the natural processes.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Gilchrest.
    Judge Poe.
    Well, we are ready to proceed with the testimony, and I 
already told the witnesses that I do appreciate the fact that 
they have taken time out of their busy schedules to be here. 
Mr. Gilchrest said he thought their anticipation was like 
Christmas morning; it is probably more like when they have to 
go to the dentist or something.
    At any rate, we are pleased to have the Honorable John Paul 
Woodley, Jr., who is the Principal Deputy Assistant Secretary 
of the Army for Civil Works; we have Lieutenant General Carl A. 
Strock, the Chief of Engineers of the Army Corps of Engineers 
for the army; we have the Honorable Glenn L. McCullough, who is 
the Chairman of the Tennessee Valley Authority; we have the 
Honorable Bruce I. Knight, who is Chief of the Natural 
Resources Conservation Service; and we have the Honorable 
Albert S. Jacquez, who is the Administrator for the Saint 
Lawrence Seaway Development Corporation.
    Thank you very much for being here. We always do proceed in 
order of the witnesses listed on the call of the hearing, and 
so, Secretary Woodley, you can begin.

TESTIMONY OF HONORABLE JOHN PAUL WOODLEY, JR., PRINCIPAL DEPUTY 
ASSISTANT SECRETARY OF THE ARMY (CIVIL WORKS), U.S. DEPARTMENT 
  OF THE ARMY, WASHINGTON, D.C.; LTG CARL A. STROCK, CHIEF OF 
  ENGINEERS, U.S. ARMY CORPS OF ENGINEERS, WASHINGTON, D.C.; 
HONORABLE GLENN L. MCCULLOUGH, JR., CHAIRMAN, TENNESSEE VALLEY 
  AUTHORITY, KNOXVILLE, TENNESSEE; HONORABLE BRUCE I. KNIGHT, 
  CHIEF, NATURAL RESOURCES CONSERVATION SERVICE, WASHINGTON, 
  D.C.; AND HONORABLE ALBERT S. JACQUEZ, ADMINISTRATOR, SAINT 
   LAWRENCE SEAWAY DEVELOPMENT CORPORATION, WASHINGTON, D.C.

    Mr. Woodley. Thank you very much, Mr. Chairman. I want to 
assure you it is indeed a delighted pleasure, comparable in 
some ways to Christmas, to appear before the subcommittee. And 
the reason I say that is very simple: General Strock and I, 
when we appear before this subcommittee, know that we are 
appearing before a group of leaders and legislators who 
understand and appreciate the inexpressible value of the work 
of the Corps of Engineers in communities across the Nation.
    Since I appeared before you last, Mr. Chairman, I have had 
the opportunity to visit many of these communities in many of 
the districts that you represent. Wherever I go I am astonished 
at the work that the Corps of Engineers has undertaken and has 
undertaken through the years that makes a difference in 
people's lives everyday.
    So I appreciate very much the opportunity to testify before 
you today, and I am delighted to be accompanied by Lieutenant 
General Carl Strock, the very distinguished fifty-first Chief 
of Engineers.
    I ask your permission, Mr. Chairman, if I may, to include 
my complete statement as written in the record of the hearing.
    Mr. Duncan. All full statements will be included in the 
record, and you may summarize, if you wish to do so.
    Mr. Woodley. Mr. Chairman, the fiscal year 2006 budget for 
the Army Civil Works Program includes about $4.5 billion in 
Federal funding. My complete statement includes a breakdown of 
this funding by mission area or business program area, as 
defined in the Civil Works Strategic Plan.
    In addition to the budget justification materials already 
provided, we plan to provide a five-year budget plan later this 
month. This budget plan will help with long-range planning for 
this program.
    Allocations in fiscal year 2006 budget for planning, 
design, and construction reflect a focus on those studies and 
projects with the highest expected returns in the Corps' 
primary mission areas of commercial navigation, flood and storm 
damage reduction, and aquatic ecosystem restoration. The budget 
sets priorities for construction using seven performance-based 
guidelines. A copy of the guidelines is attached to my complete 
statement.
    Of the 105 construction projects that are funded, the 
budget bases the level of funding on relative performance. For 
35 lower-performing, previously budgeted projects that will 
have ongoing contracts, the budget provides funding to either 
complete or terminate each contract depending on the Corps of 
Engineers' assessment of the relative cost of completion versus 
termination for that contract. The budget also proposes to 
replace existing authority to award continuing contracts with 
new authority to award multi-year contracts to gain greater 
control over future costs.
    The Corps' regulatory program to protect aquatic resources 
receives $160 million, an increase of $10 million from fiscal 
year 2005 budget and an increase of $15 million from the fiscal 
year 2005 enacted appropriation. This funding will enable more 
effective protection for waters and wetlands and more timely 
Corps permit evaluations.
    Mr. Chairman, this budget and the forthcoming five-year 
plan incorporate performance budget principles. Many high-
performing activities would be will funded, and it is certainly 
true that other activities, although highly justified and 
entirely worthy of support, would be deferred, at least for the 
time being. In all, the budget moves ahead with many important 
investments that will yield enormous returns for the Nation's 
citizens. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Secretary Woodley. We will 
get to questions later, but I do applaud the Administration for 
recommending $275 million more than they did last year in their 
budget for the Army Corps, but I do agree with Mr. Pascrell; we 
are spending approximately $100 billion a year, or $8 billion a 
month in Iraq and Afghanistan, mainly Iraq, and it seems to me 
$4.5 billion for all the water projects all over the Country, I 
wish we could spend at least as much here as we are spending on 
this same type of work in Iraq.
    General Strock?
    General Strock. Mr. Chairman and distinguished members of 
the committee, I too am honored to be testifying before you 
today, along with Mr. Woodley, on the President's fiscal year 
2006 budget, and I too will summarize my points here today.
    This budget is a performance-based budget that reflects the 
realities of a national budget supporting the global war on 
terror. This budget focuses on funding 47 projects that will 
provide the highest returns on the Nation's investment, plus 14 
dam safety projects. Funds will be used for critical water 
resources infrastructure that provides quality of our citizens' 
lives and provides a foundation for national economic growth 
and development.
    The budget incorporates performance-based metrics for a 
continued, efficient operation of the Nation's waterborne 
navigation, flood control, and other water resource management 
infrastructure, fair regulations of wetlands, and restoration 
of important environmental resources such as the Florida 
Everglades, the Upper Mississippi River, and Coastal Louisiana. 
It also improves the quality of recreation services through 
stronger partnerships and modernization.
    This budget provides approximately $48.9 million to 
complete 13 projects by the end of 2006. As part of a 
comprehensive strategy to reduce the construction backlog, the 
fiscal year 2006 budget funds 44 other projects that provide 
high returns and are consistent with current policies. In all, 
105 projects are funded so that we can provide benefits to the 
Nation sooner.
    The fiscal year 2006 budget includes $2.142 billion for the 
Operations and Maintenance Program, and I can assure you that I 
will continue to do all that I can to make these programs as 
cost-effective as possible.
    The Corps is undergoing sweeping transformational changes 
as a result of our customer and stakeholder input. We have 
implemented USACE 2012 within the Corps becoming a matrix team, 
and our business processes are also focused on eight Corps 
regional business centers to more efficiently serve the public 
and the Armed Forces.
    We continue to strengthen our management of resources, 
streamline our planning processes, and we invite the 
involvement of other Federal, State, and local agencies, 
sponsors and interested organizations to participate early in 
the planning process to ensure that concerns are addressed up 
front rather than at the end of a plan.
    The Corps continues to strengthen its regulatory program to 
ensure wetlands mitigation is effective in retaining the 
quantity, quality, and functions of those critical resources.
    We also look forward to continue the use of external 
independent review of major Corps project studies to help 
ensure those studies sufficiently address national, economic, 
and environmental considerations.
    Domestically, more than 2,000 USACE volunteers from around 
the Nation responded to the call for help from their fellow 
citizens when four hurricanes struck the southeast last fall, 
and again after this winter's heavy rains across the Nation. 
Our dams, levies, and reservoirs provided billions of dollars 
in flood damage reduction to protect lives, homes, and 
businesses.
    The Corps has also played an integral role in the global 
effort to provide relief for victims of the massive tsunamis 
triggered in the December 26th earthquake off the coast of 
Indonesia. A Corps of Engineers employees from the Engineer 
Research and Development Center in Vicksburg, Mississippi, 
three Forward Engineering Support Teams from Japan, Alaska, and 
Arkansas; and the Corps 249th Primary Power Battalion were all 
sent to help in the area's recovery.
    Finally, the Civil Works Program is continuing to prove 
invaluable as soldiers and civilians of the Corps of Engineers 
help to rebuild the infrastructure in Iraq and Afghanistan, and 
to support the military forces deployed there. Currently, 
approximately 600 members of our organization are serving in 
Afghanistan and Iraq, sharing their knowledge and expertise 
with local engineers and other professionals. And, to date, 
over 3,000 Corps civilians have volunteered and served in the 
theater of operations, sharing the same dangers and hardships 
as those we support. Almost as importantly, we are using 
technology in support of those deployed team members to 
leverage the full capability of the organization.
    Sir, in closing, let me assure you that the Corps is 
committed to serving the Nation by contributing to our national 
defense, to the quality of our environment, and to our economic 
prosperity, and I truly appreciate your continued support in 
this end.
    Thank you, Mr. Chairman and members of the committee. That 
concludes my statement.
    Mr. Duncan. Thank you very much, General Strock.
    Next we have the Honorable Glenn L. McCullough, who is 
Chairman of the Tennessee Valley Authority. Chairman 
McCullough, you heard me say in my opening statement that the 
agencies we deal the most with in this subcommittee are the 
Army Corps and the water programs of the EPA, about 40 percent 
of their budget. But I just want to say I know that your term 
as Chairman I think expires in May, but you have, I think, 
worked very, very hard and have always tried to do what was 
right, and I admire and respect the work that you have done as 
Chairman of the Tennessee Valley Authority, and I just want to 
salute you on that. I have been concerned about the huge debt 
that TVA has had for a number of years. I think you have tried 
to bring that down, and I think you have tried to be fiscally 
conservative in the operation of the Authority, and I 
appreciate what you have done for our region.
    With that, you may begin your testimony.
    Mr. McCullough. Mr. Chairman, on behalf of TVA and 
personally, thank you very much for those kind words. It is an 
honor for me to serve with you and for me to be here today.
    Madame Ranking Member, members of the subcommittee, on 
behalf of the TVA Board of Directors and our employees, I want 
to thank you for this opportunity to appear here today. I am 
Glenn McCullough, and I have served as Chairman of TVA since 
July of 2001.
    TVA was created in 1933 by the TVA Act. TVA is entirely 
self-enhancing and we receive no funding from Congress. TVA 
provides electric power to more than 8.5 million people in the 
Tennessee Valley through 158 local power distributors, and 62 
directly served customers. Our mission is to deliver excellence 
in three key areas: generating affordable, reliable electric 
power; stewardship of the region's natural resources; and 
sustainable economic development in the seven-State region that 
we serve.
    TVA provides power for the region through a unique blend of 
coal, nuclear, hydroelectric, and gas-fired generation. TVA's 
power system achieved its best performance in our 72-year 
history in the year 2004. TVA met an all-time power demand of 
29,966 megawatts in July. Our fossil plants set both production 
and reliability records. TVA is bringing online the Nation's 
first nuclear reactor in the twenty-first century at Browns 
Ferry. I am pleased that we are currently on budget and on 
schedule for a May of 2007 restart of Browns Ferry Nuclear Unit 
1.
    In addition, we will increase emission-free generation by 
750 megawatts in our hydroelectric dams along the Tennessee 
River system. And for the fifth year in a row TVA's 17,000-mile 
transmission system achieved a 99.999 percent reliability for 
our customers.
    TVA effectively manages the Tennessee River system. In 
2004, TVA began implementing a new reservoir operations policy 
to better manage the competing needs that are served by the 
river system.
    Now, while we deliver affordable, reliable energy to our 
customers, TVA is working to improve air quality by conducting 
one of the most aggressive emissions reduction programs in our 
Nation. By the end of the decade, TVA will have invested $6 
billion to reduce emissions. Now, in order to comply with 
increasingly stringent emission reduction requirements, TVA 
also plans to make minimal use of purchased emission allowances 
that are consistent with regulatory requirements.
    Since TVA's beginning, economic development has been at the 
heart of our mission. TVA aggressively works to retain and to 
attract jobs to the Tennessee Valley. In 2004, over 50,000 jobs 
were either created or retained in the Tennessee Valley, along 
with a capital investment exceeding $2.1 billion.
    In 2004, while we are achieving excellence in energy and 
the environment in economic development, we are also striving 
to increase our financial flexibility. Last year, TVA reduced 
total financing obligations by $278 million, which is $53 
million more than our target. For fiscal year 2006, we are 
projecting more than $8.1 billion in revenue. We plan to invest 
more than $1.3 billion in capital projects for our power 
system, including clean air projects, the recovery of Browns 
Ferry, and transmission system reliability.
    Now, we expect to invest $85 million in stewardship 
activities, which is about the same level as previous years. 
TVA also plans to reduce total financing obligations by $150 
million.
    We have an aggressive goal to reduce total financing 
obligations by $5.6 billion by the year 2015.
    Beginning with our annual report in fiscal year 2006, TVA 
will begin filing financial reports with the Securities and 
Exchange Commission, as required by the 2005 Consolidated 
Appropriations Act. TVA has been increasing its transparency 
and disclosure for several years, and we support measures that 
would make TVA more open to the people we serve.
    The same legislation makes a major structural change in 
TVA's governance. The bill creates a new nine-member board, 
instead of TVA's current three-member full-time board. Board 
members will continue to be nominated by the President, 
confirmed by the Senate. The new board will hire a chief 
executive officer, which currently TVA does not have.
    The year ahead poses new challenges. TVA employees are 
ready to meet those challenges. We are committed to working 
with Congress, with the Administration, with stakeholders 
throughout the region on issues that will shape the future of 
the Tennessee Valley.
    Thank you again for this opportunity to be with you today, 
and I would be happy to answer your questions.
    Mr. Duncan. Thank you very much, Chairman McCullough.
    Mr. Knight?
    Mr. Knight. Chairman Duncan, members of the subcommittee, 
thank you for the opportunity to appear before the subcommittee 
today to discuss the water resource program activities of the 
Natural Resources Conservation Service. In my remarks I will 
focus on our ongoing efforts in this area of our jurisdiction 
and discuss our budget priorities for fiscal year 2006.
    The Natural Resources Conservation Service water resource 
programs provide communities and landowners site-specific 
technical expertise for watershed planning and financial 
assistance for watershed project implementation. The programs 
provide a process to solve local natural resource programs, 
including flood damage mitigation, water quality improvement, 
ensuring an adequate rural water supply, water conservation, 
soil erosion control, and fish and wildlife habitat 
improvement.
    Local governments and other sponsors initiate projects with 
the help of NRCS, and conservation districts are empowered as 
decision-makers to build State and local partnerships and 
acquire funding contribution.
    The President's 2006 budget recommends funding based on the 
relative priority of the three accounts in the NRCS water 
resource programs budget. The Watershed Surveys and Planning 
program helps communities and local sponsors assess natural 
resource issues and develop coordinated watershed plans that 
will conserve and utilize their natural resources. This include 
floodplain management studies, cooperative river basin studies, 
flood insurance studies, watershed inventory and analysis, as 
well as development of Public Law 566 watershed programs. Over 
65 percent of these plans are used to enable local planning 
efforts, while the other 35 percent guide experts and sponsors 
in the implementation of watershed projects to solve natural 
resource problems.
    The President's budget for fiscal year 2006 proposes to 
focus on funding existing Watershed Survey and Planning 
efforts. The budget request is $5.1 million. To help 
approximately 40 communities complete their ongoing watershed 
planning efforts.
    The Watershed and Flood Prevention Operations component in 
the fiscal year 2006 budget proposes to redirect this program's 
resources to other high-priority programs. This decrease in 
funding for Watershed and Flood Prevention Operations account 
will enable the Administration to divert limited resource to 
other priorities, such as accelerating technical assistance to 
help agricultural producers meet regulatory challenges, 
particularly in the area of helping them manage livestock and 
poultry waste.
    Mr. Chairman, I would note that the funding for this 
program is over 105 percent allocated by the earmarking 
process, which has effectively removed the Department's ability 
to manage this as a standalone program. The intense level of 
congressional directives does not permit the agency to 
prioritize projects based on merit or local need, or give us 
the ability to coordinate program efforts in order to meet 
overall strategic natural resource goals.
    The President's budget funding request for fiscal year 2006 
does include funding for Watershed Rehabilitation activities 
involving our aging dams. These projects involve dams with a 
high risk of loss of life and property. To date, 134 watershed 
rehabilitation projects have been funded and 37 have been 
completed. Sixty-six dams have rehabilitation plans authorized 
and implementation of the plans is underway. The Administration 
requests $15 million to address critical dams with the greatest 
potential for damage.
    To sum, Mr. Chairman, the U.S. Department of Agriculture 
has accomplished much in the water resource programs over the 
last 50 years. Economic, social, and environmental benefits 
from these programs have been significant for both agricultural 
and urban communities, which will continue to enjoy reductions 
in erosion, improved water quality, flood mitigation, and 
greater productivity of crop land and range land, as well as 
many recreational opportunities. In the context of the new 
budget request for fiscal year 2006, we will prioritize limited 
resources to ensure that we are well positioned to meet the 
most pressing challenges ahead.
    I thank the subcommittee and would be happy to respond to 
any questions.
    Mr. Duncan. Thank you very much, Mr. Knight.
    Administrator Jacquez?
    Mr. Jacquez. Thank you, Chairman Duncan and Ranking Member 
Johnson, members of the subcommittee.
    The U.S. Saint Lawrence Seaway Development Corporation is a 
wholly-owned government corporation and an operating 
administration of the U.S. Department of Transportation. It 
operates, maintains, and promotes the Saint Lawrence Seaway 
with its Canadian counterpart, the Saint Lawrence Seaway 
Management Corporation. The unique binational nature of the 
Seaway requires 24-hour, year-round coordination on rules and 
regulations, day-to-day operations, traffic management, safety, 
and security.
    The President's budget request supports the Corporation's 
mission to ensure a safe, secure, and reliable waterway by 
providing the resources necessary to implement our priority 
projects and programs.
    Since the subcommittee has my written statement and our 
budget essentially is a current services budget, I will focus 
the remainder of my remarks on the element of the budget that 
has created the most interest.
    That element is the President's fiscal year 2006 budget 
request to reestablish U.S. Seaway commercial tolls as a 
financing mechanism for self-funding the corporation. A 
legislative proposal will be presented to Congress that will 
allow the Corporation to collect fees to support its 
operations, maintenance, and capital needs. The intent of this 
initiative is to make the Corporation more self-sufficient by 
providing it a certain degree of financial flexibility and 
stability.
    The Corporation was funded through commercial tolls from 
its inception in 1959 to 1987. Since that time, the Corporation 
has been funded primarily by an appropriation through the 
Harbor Maintenance Trust Fund, coupled with its other non-
Federal revenues such as interest income and pleasure craft 
tolls.
    The nearly 50 percent split between toll revenue and 
traditional appropriations from the Trust Fund in the fiscal 
year 2006 budget request is based on the assumption that U.S. 
toll collections would begin at the start of the 2006 
navigation season. That season would begin in late March or 
early April, or about the halfway mark of the fiscal year. 
Beginning in 2007, the proposal calls for the Corporation to be 
completely self-sufficient.
    The toll levels established will be based on the type of 
cargo being shipped, as well as the vessel charge based on the 
gross registered tonnage of the vessel.
    The reinstitution of U.S. Seaway tolls would require 
diplomatic coordination and collaboration with Canada to 
conform with the 1959 Seaway Tariff of Tolls Agreement. U.S. 
Seaway tolls would also be subject to a U.S./Canadian Seaway 
toll negotiation process that includes negotiations on both the 
toll levels of each commodity and the revenue split between the 
two corporations.
    The 10-year savings from the toll collection proposal 
credited to authorizes would equal $170 million. OMB will work 
with Congress to reclassify these enacted fees as discretionary 
beginning in fiscal year 2007.
    The Administration supports efforts to improve service 
delivery and believes this proposal would enable the Seaway 
Corporation to function more like a private corporation. It 
would also bring operations more in line with our Canadian 
counterpart, which directly supports its maintenance and 
operations through fees.
    The Seaway Corporation's budget reflects our commitment to 
providing a safe, reliable, and efficient waterway for the 
movement of commercial goods through the Great Lakes region of 
North America. I am confident the Corporation's excellent 
safety, reliability, and customer performance record will 
remain strong.
    Thank you for inviting me to testify, and I would be happy 
to respond to any of the questions the committee may have.
    Mr. Duncan. Well, thank you very much, Mr. Jacquez.
    We will go first for any comment he has or any questions to 
Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I appreciate that.
    Welcome, Secretary Woodley. You were recently in my 
district in California. I have everything around the Prado Dam 
and the Santa Ana mainstream.
    General Strock, welcome. It is good to have you here this 
year. I, until recently, had Colonel Thompson, and he has been 
reassigned to Iraq. We had a really good relationship. I was 
kind of sad when he left, but Colonel Dormstotter has taken his 
place, and we have had numerous conversations and had several 
issues, because my area has a real problem with flooding in 
those areas, and I have to say I have been most impressed by 
him. I was sad to see Colonel Thompson leave, but I have no 
regrets with Colonel Dormstotter. He is responsive, 
cooperative, and I would say very professional. So I couldn't 
speak higher of any individual from Army Corps than I could of 
him.
    A lot of people do a lot of complaining at you. I have 
nothing but praise for you. You have been great in my district, 
and responsive, and we have many issues because of the 
Endangered Species Act and mainstream beds in our area we are 
always having to deal with you on, and you have done a 
tremendous job, and I would like you to know I am very pleased 
with the assignment Colonel Dormstotter had.
    My first question, Mr. Woodley, I know you have had a 
chance to visit the Prado Dam recently, and because of the 
storms how much do you think this set the project back, the 
recent storms we have had in California?
    Mr. Woodley. Sir, I would have to check with the chief on 
that to be absolutely sure, but my understanding is that they 
are making every effort to bring that project back on schedule. 
Of course, they have had to take the water out from behind the 
coffer dam and clean the mud out of the works, but I understood 
that they would not lose any of the work, and the contractor 
was able to get all of his equipment that would be damaged by 
the overtopping of the coffer dam out of the works and so 
suffered no loss in that way. So it certainly has set us back, 
but my understanding is that the district and the contractor 
intend to aggressively proceed to get back on schedule with 
that project, which is just so vital.
    Mr. Miller. Do you know how much has been set back, do you 
have any idea at this point?
    Mr. Woodley. In terms of?
    Mr. Miller. Time-wise what the setback would be.
    Mr. Woodley. Time? A matter of weeks, I believe.
    Mr. Miller. So it is not that significant.
    Mr. Woodley. It is not dramatic. It is significant, but not 
dramatic.
    Mr. Miller. The benefit-cost ratio on the Santa Ana 
mainstream was currently up to 3.8, which is pretty good. Has 
it become a greater priority for the Corps because of the 
recent floods we have had in California?
    Mr. Woodley. It was already a very high priority.
    Mr. Miller. Would it be moved up from the 3.8 because of 
that, do you believe, or not?
    Mr. Woodley. The chief informs me that they have 
recalculated the expectation of benefit, and that it would show 
a higher benefit at this point. And since our current 
construct, which the Chairman has mentioned, does need work and 
needs to be refined, and we appreciate that, but under our 
current construct it would remain a very high priority project.
    Mr. Miller. That dam and that mainstream are extremely 
important not only because of flood issues in California, but 
we have a tremendous water problem in California. And I will 
say the Army Corps of Engineers in the last couple years worked 
with us in raising that dam level four foot. I can not tell you 
how much that was appreciated. In fact, General Flowers back 
then did a written okay overwriting the normal process to allow 
for one year, and really was a tremendous benefit. And what was 
sad was last year, after those big fires we had, we had to dump 
all that water out of that dam because of silt.
    But I just want to say that when the last proposal was 
made, Mr. Chairman, to cut the Army Corps budget, I know we all 
fought to have that turned around and we were able to do that. 
One thing I would not support, and will do everything I can to 
oppose, is any concept of cutting your budget, because I think 
of no greater asset to my area, and especially the United 
States overall, than the Army Corps of Engineers.
    Like I said, I couldn't be happier. You have always been 
responsive, very professional, and if there is a way of 
resolving a problem, you have always done that. So I know you 
get a lot of complaints, but I have nothing but praise for you.
    Mr. Chairman, I yield back. Thank you very much.
    Mr. Duncan. Thank you very much, Mr. Miller.
    Ms. Johnson. Thank you very much.
    Let me express my appreciation again for the witnesses 
appearing.
    Assistant Secretary Woodley, you referred to high expected 
net economic returns and most worthy projects. For flood 
control and storm damage reduction projects, this generally 
translates into protecting high value property. For navigation 
projects, this means high volume, high value cargo. In the 
translation in the real world it means taking care of the 
wealthier areas and the low-income areas get deferred. Large 
ports get improvements; smaller ports get deferred. The same 
concept as the rich get richer and the less affluent and less 
powerful are left to take care of themselves.
    How do you justify a policy that provides the least for 
those who are in the most need?
    Mr. Woodley. Ms. Johnson, our economic development models 
that we use are based on the principles and guidelines, which 
are matters of longstanding established throughout the Federal 
Government for evaluation of water resource projects. But the 
idea that they are the be-all and end-all I think is erroneous. 
And to the extent that we use them, I certainly agree that we 
should use them in a way that takes into account the concerns 
that you address. And I would like to certainly offer, as we go 
forward, to work with you and the other members of the 
committee to craft more sophisticated measure of performance 
for our water resource development projects that can take some 
of those very important societal concerns into account to the 
extent they are not already taken into account through our 
program. That is certainly a want, as a Nation, to have a 
program that was entirely characterized in the way that you 
described.
    Ms. Johnson. Thank you. Has this policy, the guidelines 
that you are working under, been evaluated on the Executive 
Order 12898, relating to environmental justice?
    Mr. Woodley. I believe that we do, throughout our program, 
adhere to the principles of that Executive Order. In the area 
of environmental restoration, we do not use economic 
development models or cost-benefit analyses, so I would say we 
are not subject to that same amount of distorting influence in 
that arena as we are in the arena of either flood damage 
reduction or navigation.
    Ms. Johnson. Do you have copies of the analysis?
    Mr. Woodley. I am sure that we do, yes, ma'am.
    Ms. Johnson. Could I please have a copy?
    Mr. Woodley. Of the analysis of the projects--
    Ms. Johnson. Of how you justify your guidelines.
    Mr. Woodley. How the guidelines are justified in accordance 
with the--
    Ms. Johnson. Executive Order.
    Mr. Woodley.--Executive Order? I would certainly be 
delighted to provide that to you.
    Ms. Johnson. Thank you very much.
    General Strock, your testimony refers to 13 projects that 
will be completed under this budget, and current law requires 
that mitigation for fish and wildlife losses be undertaken 
either advance of construction or concurrent with construction. 
When these projects are completed in fiscal year 2006, will the 
mitigation for these projects also be complete?
    General Strock. I would have to answer that for the record 
on the specific projects, ma'am, but generally that is our 
policy, that that would occur.
    Ms. Johnson. How do you monitor to determine the success of 
the mitigations?
    General Strock. We have mechanisms in place. We have 
mitigation requirements identified and, in fact, in all cases 
we do not always arrive at the conclusion that mitigation is 
necessary, but when it is we set objectives and put processes 
in place to accomplish that mitigation, and then we follow up 
to ensure that that in fact does occur.
    Ms. Johnson. Okay. In my area we have a number of species 
that are native to the area that are no longer there because of 
water pollution. When there is such a thing, does it influence 
decisions or priorities?
    Mr. Woodley. Certainly, the national policy as expressed in 
the Endangered Species Act is a very important policy that we 
do follow in formulation and operation and maintenance of 
projects.
    Ms. Johnson. Thank you very much. I think my time has 
expired.
    Mr. Duncan. Thank you, Ms. Johnson.
    Dr. Boozman?
    Mr. Boozman. Thank you, Mr. Chairman.
    It is really good to see you all here. I want to compliment 
all of you.
    I live in a very beautiful part of Arkansas and we have a 
lot of dealings with the Corps, and I want to compliment you 
all. Our dealings have been very, very good not only at the 
national level, but all the way down to the guy that is 
fighting the battle and trying to make the people welcome and 
to fight the little battles there.
    One of the things that has come up with us--and I know we 
are talking about budgets and things, but I think this is very, 
very important. We have a situation in Arkansas, on the 
Arkansas River, where we are trying to rehabilitate a dam on 
the Ozark, and I know the General is very familiar with that. 
And we are told that the numbers are such that it is just right 
there, and maybe even with reworking some things and adding it 
will be there to go forward. We have got some money 
appropriated for it.
    I just got back from Europe, though, and the Europeans are 
very concerned, as are many people, about things like global 
warming. And you can argue as to how much that is going on, 
but, besides that, the alternative to this is burning fossil 
fuels, whether natural gas or coal-fired or whatever, to 
generate electricity. And this dam, when it was constructed, I 
guess the generators weren't that good to begin with, are just 
in total disrepair now and just aren't working, so the water is 
just flowing over.
    So I have really got a couple questions. First of all, from 
a conservation effort and everything else, this is a very safe 
form of energy, a very environmentally-friend form of energy 
and things. Is there anything put into the formula that has to 
do with that?
    The other thing is if we work hard and when we worked hard 
to get the money appropriated through the auspices of the Corps 
agreeing with us--this is a good project, this is something you 
need to work on--what happens to the money that we get 
appropriated that is just sitting there?
    Thank you.
    General Strock. Sir, we are in the midst of reevaluating 
how we look at projects, and one of our objectives is to look 
at a more multi-objective approach, and I think the example you 
cite is a great one, that we would look at the potential for 
hydroelectric power generation. Certainly on low-head dams like 
that one it makes all the sense in the world from an 
environmental perspective.
    For the monies that are appropriated and waiting to be 
expended, we have a process in which we try to maximize on a 
national level the effects of the resources you put before us, 
so we do on occasion use those monies on other projects, with 
the idea that they will come back when needed for that project. 
We continue to develop justification and plans for execution, 
and at such time when we are ready to go ahead with 
construction, we put those funds back to work on that project.
    Mr. Boozman. Again, thank you very much. I do appreciate 
all that you all are doing. Thank you.
    General Strock. Thank you, Mr. Boozman.
    Mr. Duncan. Thank you very much.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. I have listened, Mr. 
Chairman, and I am a staunch supporter of the Army Corps, and 
the record will indicate, as is everyone on this panel here.
    I know you are the messengers, but the fact remains that 
these projects are out there. You know, when you look at the 
budget itself, there are 275 projects that were funded in the 
2005 appropriations. We have gone from 275 to what you are 
proposing as 105, and there is no way that you are going to 
justify that. So you can use all the cliches, and I have heard 
them: highest returns, cost-effective, efficiently, limited 
resources. They are all there. There is a pattern. You go to 
this room, you go two rooms down, you will hear those patterns 
as justification. So while I am a staunch supporter of all of 
you, and have said so publicly and privately, this is 
outlandish.
    I would like to know, General, can you tell me how cutting 
funding on agreed needed water projects helps us on our war on 
terror, to use your words?
    General Strock. Sir, at the risk of repeating those cliches 
again, I think that what we attempt to do is, at a national 
level, invest those resources that provide the highest return 
on investment. At at a time of constrained funding, we have two 
choices, and that is essentially to continue to spread wide and 
thing and essentially get nothing done and nothing completed, 
or to concentrate the available resources on projects which do 
provide a return. And that is the approach we have elected to 
take, and it is regrettable, because as a result of this, every 
project that is on the books now is economically and 
environmentally justified, and it is unfortunate that we cannot 
proceed with those projects, but we think, from a national 
level, generate as many returns on these investments in as 
short a time as possible is an appropriate way to go.
    Mr. Pascrell. Isn't it true, General, through the chair, 
isn't it true that every one of those projects was approved?
    General Strock. Yes, sir, it is.
    Mr. Pascrell. So we are going backwards. We are sliding 
backwards, there is no two ways about it. And there is no 
justification of this, none whatsoever.
    You know better than I do these impact on folks all over 
the Country, rural areas, suburban areas, urban areas. And you 
know that if you look at the State, that these projects, we can 
not ask anymore of the States and we cannot ask anymore of the 
municipalities to increase their shares. Most of these projects 
have joint procedures. I don't know what the solution is, but 
this budget, as so many other budgets, we have gotten to the 
position now, got down the road after five years that we have 
to consider Draconian cuts in the very projects that we have 
approved.
    Now, I realize that you are the messenger, and you are all 
the messengers. It is mind-boggling that we are considering 
raising tolls on the Saint Lawrence. No other place does this 
happen. I mean, that is an outrage. I don't want to go there 
because that is not my main focus. My main focus is these 
projects. The projects have been approved, and what you are 
telling me is that the Corps, because of what budget 
constraints you have right now, are not able to complete or go 
on with those projects.
    And I will go back and tell my constituents on Monday 
morning, I will go back and tell them exactly what your words 
are. So those folks who live in the one example that I gave, 
before the Peckman River, I want them to know what we are all 
about. Elections have consequences and budgets have 
consequences, and we are looking straight at them. I am a 
former member of the Armed Forces. I strongly support what you 
are doing, but I am telling you the Corps is not living up to 
its history, and you are not getting the money to do that, and 
it is my job to deliver for my community, as it is everyone 
here on this panel. And we are not asking anything that is 
unreasonable or outrageous that we haven't already approved. I 
mean, this is logic.
    Straighten me out if I am wrong, General.
    General Strock. No, sir, you are correct.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Pascrell.
    Mr. Osborne.
    Mr. Osborne. Thank you.
    I would like to thank members of the panel for being here 
today and I would like to address my questions primarily to Mr. 
Knight. I am very interested in NRCS, and I note in your 
testimony that the Watershed and Flood Prevention Operation 
program has been pretty much eliminated in the budget, and this 
is a concern to me. I also note that you state that the funding 
for this program is over 105 percent allocated by the 
earmarking process, which has removed the Department's ability 
to effectively manage the program. So it appears like you have 
got a lack of funding. The Administration has not seen fit to 
do much in this area. Then, also, you have got Congress maybe 
getting in the way a little bit too, here, and that you have no 
discretion. So I am guessing that maybe the reason the 
Administration felt this program was not a good one was that 
you had so little flexibility to implement what you feel would 
be your priorities.
    I wonder if you can amplify on that a little bit without 
getting yourself in great trouble. I am really interested in 
your Department and your ability to perform effectively.
    Mr. Knight. Mr. Osborne, as you are well aware, the budget 
is a priority setting document, and there is clearly several 
messages to be sent here. We are 105 percent over appropriated 
in this particular program, which is starting to cause a great 
deal of pain in being able to manage staff resources from State 
to State, because it has dramatic shifts from year to year on 
whether there is a need and if you have adequate staff in one 
State versus another in being able to manage and integrate the 
program.
    As far as the priorities go, the role of NRCS goes well 
beyond the slice that we are discussing today of watersheds, 
and one of the top priorities for NRCS is to help farmers and 
ranchers come into compliance with local, State or national 
rules and regulations. One of the greatest challenges that we 
are faced with right now is helping farmers and ranchers come 
into compliance with animal waste regulations that are coming 
at them, commonly known as the AFO and CAFO rules. The 
President's budget is actually proposing a $37 million increase 
in funding in one program alone, conservation technical 
assistance. That is in tended to have us focus on the planning 
needs between now and the end of 2006 to be able to help our 
customers reach their needs in this particular very difficult 
regulatory scenario.
    Mr. Osborne. Well, I appreciate that very much, because I 
am involved in an area where NRCS is very important and EQIP, 
all of those things that you help administer, and the lack of 
technical assistance is so crucial. And as we have expanded 
EQIP from $200 million to about $1 billion and we are 
exponentially increasing the number of projects, we really need 
your help. Do you feel that you are adequately funded to where 
you are able to provide technical resources in those areas?
    Mr. Knight. The proposed budget for EQIP gives us an 
effective increase from this past year to 2006. This year along 
we will have a little over $1 billion to invest in EQIP with 
adequate technical assistance to be able to do that. That $1 
billion, to put it in perspective, is larger than the amount of 
funds for EQIP in the entire previous farm bill. So we have 
been under an explosion of growth, but we are starting to wear 
away on the backlogs there. We serviced nearly 46,000 EQIP 
customers in contracts last year; we now have about 159,000 
contracts nationwide.
    Mr. Osborne. Well, we appreciate that and we see a real 
boost in the EQIP contracts being serviced. Last question. 
Since small watershed projects have a high economic return on 
investment, very important to small rural communities, do you 
feel that maybe we should do a little bit better job of funding 
some of these projects, because they really do enhance quality 
of life? There is a definite rural economic development 
component to those, and I know you are constricted by the funds 
you have. Do you have any comment on those areas?
    Mr. Knight. With the priorities that have been established 
in the 2006 budget, we are now looking at how to more fully and 
robustly integrate the planning that we are able to do in our 
watershed programs with our other programs, so that you have a 
fully integrated approach and are able to look at what are the 
needs in the whole watershed and ensure that we are able to 
utilize our resource-based programs in a better coordinated 
fashion with the structure-based programs in an attempt to 
maximize the return from those planning investments.
    Mr. Osborne. Thank you.
    I yield back, Mr. Chairman.
    Mr. Duncan. Thank you very much, Mr. Osborne.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. And thank you and the 
ranking member for holding this hearing.
    I have some questions for Secretary Woodley with respect to 
Army Corps projects in my district. I represent New York I, 
which is the eastern half of Long Island. We have several 
hundred miles of coastline. Secretary Woodley, I have 
essentially the same questions for you I had a year ago. In 
fiscal 2005, the budget proposed the elimination of Army Corps 
funding for the Fire Island and Montauc Point Reformulation 
Study. We were successful in restoring that funding here in the 
Congress. Once again in fiscal year 2006, the President's 
budget eliminates the funding for that really, really important 
project. We need $1.7 million and we are about 14 months away 
from completing the study, which has been going on for about 15 
years now.
    So my question is what is the rationale for the Army Corps' 
position. Is it that you don't think we need to complete the 
study or do you think the completion of the study ought to be a 
local town and county government responsibility? Why would we 
cut the funding when we are so close to completing this vital 
project?
    I am sorry, Secretary, you are going to find that there is 
money in the budget, if that is what you are looking at. That 
money is for a court-ordered beach nourishment project, it is 
not for the continuation of the study. There is a discreet part 
of the budget that was to complete the study, and that money 
has been zeroed out.
    Mr. Woodley. Yes, sir. I will have to get back to you on 
that, sir, because I had understood there was funding in there 
for the project. So I have obviously been misdirected on that, 
so let me get back to you on that.
    Mr. Bishop. Okay, I would appreciate you doing that. And 
just to be clear, what is in there is money for a court-ordered 
beach nourishment project in the area called West Hampton 
Dunes. But there is no money to complete this study for an 83-
mile stretch of coastline that is vital. And just so that you 
understand my focus on it, this is a study that would help 
protect $1.5 billion worth of economic activity and almost $3 
billion worth of real estate. So this is a study that is 
absolutely vital to the economic vitality of my district.
    Equally important, the budget, once again, carries forward 
a recommendation that beach nourishment projects largely be the 
responsibility of local communities. The Corps would take the 
responsibility for the initial construction phase, but then 
ongoing management and maintenance, so to speak, of a beach 
nourishment project would be a local responsibility. And my 
question again is why is that the Corps' position and how would 
you justify it? Because, again, in my district, for the most 
part, the beach nourishment projects that we either have or 
need are as the result of Corps projects. We have significant 
erosion down-drift of groins that are Corps-installed groins, 
down-drift of inlets that are Corps-installed and maintained 
inlets. Why would it be the responsibility of the town or the 
county to maintain, in effect, the implication or the 
manifestation of a Corps project?
    Mr. Woodley. Mr. Bishop, I am very pleased that you focus 
on that because that is exactly the point on which our proposal 
for the fiscal year 2006 has been modified from the position 
that the Administration took in fiscal year 2005. The 
Administration agrees completely that those cases and the 
Montauc one that you mentioned is one--and those cases in which 
the feasibility study or other report on the project indicates 
an impact to nourishment based on existing generally Federal 
navigation activities and projects, that that should and 
properly be a Federal responsibility, and we are budgeting 
fully to maintain that responsibility. We continue to maintain, 
though, that there should be a parallelism between the policy 
that we operate on the inland side and the policy that we 
operate on the coastal side, and the logic that we seek to 
apply is that the Federal responsibility will be in the very, 
very high dollar arena of establishing the berm and 
establishing the flood control, or storm damage reduction is 
the more precise term, structure, and that then the maintenance 
of the structure should be a responsibility for the local 
sponsor.
    I understand the arguments that can be made in 
contravention of that, and I can only say that that is our 
position. We are making an exception, which is a very 
substantial exception, for those areas in which the 
renourishment is interfered with in some way by a Federal 
navigation project or other Federal activity.
    Mr. Duncan. All right, thank you very much.
    Judge Poe?
    Mr. Poe. Thank you, Mr. Chairman.
    Thank all of you for being here. A couple observations. We 
are talking about a budget of $4.5 million. To me, it seems to 
me like that is wholly inadequate. On the other side, the 
Administration is budgeting $1.9 billion to Egypt. Why don't we 
take half that money, or all of it, and bring it home. Charity 
starts at home. It doesn't make much sense to me why we are 
doing that. So I commend you for working within the parameters 
that you have, and you certainly could use more money.
    I represent Southeast Texas, Sabine River area. On the 
other side of Sabine River is Louisiana. The Sabine River 
doesn't exist to keep those folks from Mr. Boustany's area in 
Louisiana out of Texas, or more likely keep Texans out of 
Louisiana, but the Sabine Nature's Riverway, which most 
Americans have never heard of, harbors two ports, Port Arthur 
and the Port of Beaumont. The Port of Beaumont, number four 
port in the United States in tonnage. One-third of the military 
cargo going to Iraq goes out of the Port of Beaumont, and 
lining the Sabine Nature's Riverway are petrochemical plants, 
five refineries. One-third of the pipelines of the United 
States go through that area.
    And I have a couple of questions for you, General. One, 
would you say the Sabine Nature's Waterway would fit under the 
Corps' principles and guidelines for selecting high priority 
projects within the Corps' limited resources?
    General Strock. Yes, sir, it would, sir.
    Mr. Poe. Thank you. We have worked with the Corps and I 
have talked to the folks that you have got down in Southeast 
Texas, and they are doing as good a job as they can with the 
fact they don't have any money. My second concern, however, in 
1987 the Senate authorized a fact-finding authorization to 
study the widening and deepening of the riverway, and anyway I 
add it, that was eight years ago. Now, it took the United 
States only 10 years to build the Panama Canal after we took it 
over from the French, after they had treaded water--no pun 
intended--and I asked the question why does it take so long to 
study? I mean, I have tried criminal cases. I had juries decide 
death penalty cases, and it never took them eight years to make 
a decision. Why does it take so long to study before we start 
moving dirt?
    General Strock. Well, sir, every project has its own 
aspects that need to be considered. I can not tell you 
specifically on the Sabine; I could give that for the record. 
But a big part of the issue here is the level of funding we are 
able to achieve on that project. We have a capability to move 
the study further along faster, but we are unable to fully fund 
it at that level, sir.
    Mr. Poe. Well, it is maintenance, studying to widen and 
deepen still doesn't resolve the issue of whether the port is 
going to be wider or deeper. I understand maintenance funds. 
The colonel down in Southeast Texas is worried just about 
maintenance now. So I hope we can figure out a way to at least 
maintain the port. It would be nice to be able to get that 
cargo over to Iraq without the silt coming into the channel 
there. But if you can help us out on these studies. When all is 
said and done, more is said than done. So if we can do 
something with these studies to get a verdict and a decision, 
because as pointed out by the other side, it is costing a lot 
of money just to do these studies, and if we stop in the middle 
of a study, then that money is sort of wasted. So if you can 
help us figure out a way to have a start and a finish date, and 
then make a decision, then maybe we can do what is right for 
the Country there. But thank you for your work, General.
    General Strock. Yes, sir. Sir, this budget does fund both 
the study and the O&M to a level. We also, within our 
authorities, are looking. We recognize the need to improve our 
planning processes, so we have taken a number of initiatives to 
improve the planning process, specifically focused on the 
timeliness of that process, sir.
    Mr. Poe. Thank you.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Judge Poe.
    Ms. Schwartz.
    Ms. Schwartz. Thank you, Mr. Chairman.
    Thank you for the opportunity, and I appreciated your 
comments. I really think this question is really for the 
General, if I may. I wanted to talk with you about the oil 
spill that happened just about four months ago on the Delaware 
River in Philadelphia, Pennsylvania. There was a hearing that 
the Coast Guard Subcommittee had, and we had very good 
testimony from Lieutenant Colonel Ruck, who really was very 
straightforward. There were a lot of compliments about the Army 
Corps' handling of the spill. It was a pretty substantial 
spill, as you know, and very costly, and the cleanup will 
continue to be costly.
    There were some very interesting issues that were raised, 
that came up during that hearing, two specifically. One was 
whether in fact whether the Army Corps had adequate authority 
to remove some of the obstacles that they find when they 
actually do do sweeps of the Delaware River. That was a serious 
concern to the chairman of the subcommittee, and to me as well, 
and we wanted to be sure that in fact there is explicit 
authority for the Army Corps, when they identify an obstacle in 
the Delaware River, that they don't just tag it or note it, but 
they actually can remove it. And he wasn't sure that they had 
the authority to do that, so that is a serious problem, 
obviously, because we know that this vessel hit an obstruction 
that was not tagged, was not known about, could have shifted. I 
think they are still doing the investigation.
    So my first question is do you know whether the Corps has 
the authority, once they identify an obstacle, to not just tag 
it, not just try and find who dumped it, but to actually remove 
it so that the Delaware River, and I'm sure other rivers across 
this Country, would be safe for large oil tankers who are 
moving through the Delaware and cause this kind of very serious 
damage to the Delaware River?
    General Strock. Yes, ma'am, it is my understanding that if 
the obstacle presents an impediment to navigation in a Federal 
channel, we have the authority to do that, and certainly have a 
responsibility to mark and note those. We have a limited 
authority, though, outside the dimensions of the channel, and 
as I understand it, we suspect that the obstruction that that 
vessel hit was outside the Federal channel, and we did not have 
the authority to operate in that area.
    Ms. Schwartz. It just was in a different part of the river, 
you mean?
    General Strock. Yes, ma'am, outside the channel. When it 
gets up close to the berth, it is the local responsibility to 
maintain depths next to their berths. We have a responsibility 
for the channel.
    Ms. Schwartz. You mean the owner of that particular peer? 
Is it in private hands at that point?
    General Strock. Yes, ma'am, private or local agencies.
    Ms. Schwartz. And then do you provide notification to 
whoever owns that particular part of the river who is supposed 
to remove the obstruction? Do you provide notification?
    General Strock. Yes, ma'am. If it is navigable waters, we 
do have the authority to provide notification.
    Ms. Schwartz. Is there some enforcement or follow-up? What 
if they don't do it and just leave it there, it is just an 
obstruction in the waterway and there is no enforcement to 
remove it?
    General Strock. If it is an impediment to navigation, we 
also have an enforcement authority under our Title X regulatory 
authorities.
    Ms. Schwartz. And how long does that take?
    General Strock. I can not tell you specifically, it is 
situational. I would have to evaluate each case on its own 
merits, ma'am.
    Ms. Schwartz. So it could be months, it could be years, or 
we don't know? Well, it is something that I know I am concerned 
about, and I think that answer is not wholly adequate. I mean, 
this was a pretty serious oil spill. You are talking about tens 
of millions of dollars to clean it up, consequences for the 
river that will go on for years, closing down the port for a 
number of hours, losing economic value in the area. It seems 
too uncertain to say, well, it was on the other side of our 
line, we can not do anything about it. So I would like to have 
some more dialog on what your suggestions might be about 
whether the Army Corps needs more authority to cross over those 
lines, whether in fact there is some enforcement or fines or 
penalty for not removing an obstacle. It seems to me that it is 
just not adequate to say it was on the other side and we are 
going to put both natural resources and people and the economy 
at risk for the future. Do you agree?
    General Strock. I agree, certainly, with that, yes, ma'am, 
and I would welcome the opportunity to amplify that answer in 
the record.
    Ms. Schwartz. That would be helpful.
    Let me just follow up on the other question. The other 
question that came up was whether in fact the sweeps for 
obstacles is done frequently enough. There was some suggestion 
that in fact while there are some new technologies being used 
more frequently, I guess laser and that sort of thing, that in 
fact actually real sweeps across the river are not done very 
frequently, mostly for the reason of resources and lack of 
funding. There was somewhat of agreement that potentially doing 
more frequent sweeps to look for obstacles is the first step, 
and I had understood that the Corps would be interested in 
doing that if they had the resources.
    Now, do you agree it is a question of resources? Do you 
think it is a question of technology? What would your answer be 
as to what would--again, the consequences are so significant 
economically, as well as to the environment, to not take more 
preventative action. We were very interested, certainly 
locally, both New Jersey and Pennsylvania, in what could be 
done to prevent such an oil spill in the future.
    General Strock. Well, intuitively I would say the answer is 
not one of technology, because we have very sophisticated 
technology for hydrographic survey. I am sure that it does come 
down to a resource, and the frequency at which we do those 
surveys would be driven by the resources available.
    Ms. Schwartz. Would that something you would be interested 
in having more resources for in the Delaware River? And, again, 
it could exist elsewhere, but this is my district, that is what 
I am particularly interested in.
    General Strock. Yes, ma'am. Certainly, it is a matter of 
risk management, where we anticipate the likelihood of an 
obstruction and the likely result if that obstruction does 
occur. So it is a matter of risk management, where are we going 
to put the resources.
    Mr. Duncan. Okay, thank you.
    Ms. Schwartz. Thank you very much, and I look forward to 
following up with you.
    Mr. Duncan. Thank you very much. And let me apologize to 
the other members. We will get to your questions. I had hoped 
we could get to everyone before I came back to my questions, 
but I have a meeting that I need to go shortly, and I am going 
to jump in here for just a minute.
    Administrator Jacquez, you mentioned the proposal for tolls 
in the budget, yet I understand that the Seaway is already 
operating below capacity. Do you think these proposed tolls are 
going to decrease the traffic, and are you considering a 
reduction in the tax to offset that, or what is going to 
happen, do you think?
    Mr. Jacquez. Well, the first thing I would like to say is 
we are very concerned about our capacity. We are operating at 
about 50 percent capacity right now, and both the U.S. and 
Canadian Seaway Corporations have worked very hard for the last 
five or six years in particular to try and come up with ways to 
both decrease the total cost of the transit, as well as to make 
it more efficient.
    With respect to the Harbor Maintenance Trust Fund, the 
Administration is aware that if tolls are collected, it would 
be an additional burden, and we are currently exploring ways in 
which to address that. As I mentioned in my statement, the 
Administration will be submitting legislation soon, and I hope 
and anticipate that that issue specifically will be addressed.
    With respect to the total impact of tolls, let me first say 
it is difficult to estimate what exact impact that would have. 
What we have done is looked at a couple of issues, and if you 
would allow me I can go into them briefly. First we looked at a 
historical impact of tolls. As you know, the U.S. Seaway 
collected tolls from 1959 until 1987, and then stopped 
collecting tolls after that date. We looked at the cargo levels 
five years before we stopped collecting tolls, so the five 
years before 1987, and we looked at the cargo levels after we 
had stopped collecting tolls. The tolls had obviously gone down 
because the Canadians continued collecting tolls throughout 
that period. What we found was that the cargo levels actually 
were minimally impacted. In fact, the cargo levels were higher 
when both countries were collecting tolls than they were the 
five years after we had stopped collecting tolls on the U.S. 
side.
    Another thing that I think is important to understand is 
when a shipper or a broker is making a decision about how and 
where to move its goods, they don't look at discreet costs; 
they don't look at the cost of tolls, they don't look at the 
cost of pilotage, or any other costs associated with the voyage 
of the vessel that is going to be carrying their goods. They 
look at the total costs and actually the total through-cost, 
and that includes a variety of things: stevedoring, wharfage, 
things like that. Tolls, at least as they were collected 
through 2004 by the Canadians, represented only about two to 
three percent of the total cost of that voyage and the total 
throughput costs. So what the impact is I am not sure. The 
intent of the proposal, however, is not to make the seaway less 
cost competitive, but to provide more flexibility, and some of 
those flexibilities are unrelated to the toll portion of the 
proposal. But, again, cost is always a concern, and it is 
something we are going to be looking at very closely.
    Mr. Duncan. How much below capacity are you operating now?
    Mr. Jacquez. Fifty percent.
    Mr. Duncan. Mr. Knight, how many of your dams have already 
reached the end of their design life?
    Mr. Knight. I would have to come back to you on the record 
on that. We have about 11,000 that we have constructed, and I 
have got quite a number that are starting to approach the end 
of that design life. That is one of the reasons why the 
rehabilitation program was one that we have retained as a 
priority in trying to bring those back up to standard, 
especially in those cases where the change in the community, 
growth in that community makes it more important to bring those 
dams up to standard and rehabilitate those.
    [The information received follows:]

    [GRAPHIC] [TIFF OMITTED] T0873.001
    
    Mr. Duncan. Do you have some type of estimate on your 
anticipated rehabilitation needs say over the next five years?
    Mr. Knight. Yes, I do, and I can submit those to you for 
the record.
    [The information received follows:]

    [GRAPHIC] [TIFF OMITTED] T0873.002
    
    [GRAPHIC] [TIFF OMITTED] T0873.003
    
    Mr. Duncan. All right, thank you very much.
    Chairman McCullough, you may know, I think you know, that 
when I first came into this job--I am now in my seventeenth 
year--I guess I was about the first one to start harping on the 
TVA debt, because around that time it got to the point where 
TVA was spending 34 cents of every dollar just to service the 
debt. I did write, a few years ago, the Federal Financing Bank, 
and we got them to let you refinance some of the debt, and that 
helps some, and you have made some efforts to bring that debt 
down. And I will say this, these debts were primarily almost 
entirely run up long before you ever came to the TVA, and I 
recognize that. Primarily, they were run up under what people 
used to call the Freeman twins back in the 1970s and so forth. 
And you mentioned in your testimony the efforts that you were 
applying toward this. I think rather than calling it debt, what 
did you call it, financing charges, or something to that 
effect?
    And I said I have a great, great respect and admiration for 
you, but you know Director Baxter was a law clerk for me when 
he was still in law school, and you both--and I have great 
respect for both of you, but you had a disagreement about this 
debt situation, and I am not sure I fully understand it. The 
way I understood it was he didn't think TVA was doing enough 
toward reducing the debt, and there was a 2 to 1 vote, which is 
kind of unusual. You haven't had that many, have you?
    Mr. McCullough. No. That is right.
    Mr. Duncan. Would you explain that to me and tell me what 
the situation is?
    Mr. McCullough. Yes, sir. First, Mr. Chairman, the board is 
united in recognizing the importance that TVA should place on 
reducing we use the term total financing obligations. That 
means statutory debt and every other financing mechanism which 
is fully disclosed, such as lease, leasebacks, discounted 
energy units, the prepay agreement that we have with Memphis 
Light, Gas & Water. We have got to drive it all down 
aggressively. The respectful disagreement on the board was 
essentially how far and how fast.
    TVA's purpose is to keep the lights on at affordable rates, 
do our part for cleaner air and water, and to ensure that the 
people of the Tennessee Valley have job opportunities. That is 
our reason for being. In order to achieve our purpose, we have 
got to grow financially more flexible. So the board has said 
let us drive down total financing obligations, including all 
debt and debt-like instruments as aggressively as possible.
    We would like to meet with you and go into more detail 
about our plans to accomplish that challenge, but I can assure 
you that the board does agree that we need to be financially 
stronger. Under this board, since 1999, TVA has reduced its 
debt more than any board in TVA's history.
    Mr. Duncan. From what to what?
    Mr. McCullough. From $27,700,000,000 back in 1997 to you 
noted statutory debt 23 and change today.
    Mr. Duncan. $27.7 billion?
    Mr. McCullough. Yes, sir. And you also recognized the 
burden of debt, which is how much does it cost the rate payers 
to finance it. It was 34 cents of every revenue dollar. Today 
it is about 18 cents. We are going to do more, and we are not 
satisfied, and we want to work with you toward that end.
    Mr. Duncan. Well, you are having to do much more toward 
fighting air pollution and so forth, aren't you? What was the 
plan on that or the amount on that, the increase that you have 
done?
    Mr. McCullough. Mr. Chairman, we are investing about $1 
million a day to ensure that TVA does its part for cleaner air, 
and the good news is the air is cleaner today than it has ever 
been before in the Tennessee Valley. We had the cleanest ozone 
season in 25 years of record. That will be $6 billion by the 
end of the decade.
    Mr. Duncan. I think that is an important point that you 
have just made. I have said before, and Secretary Leavitt, who 
was the head of the EPA until just a short time ago, said, you 
know, we keep raising the standards, and we are raising them 
again, but the air is much, much cleaner. People don't realize 
that because there are some groups that, in order to keep 
getting in contributions, they have to keep telling everybody 
how bad everything is and how much worse it is getting. But the 
air is cleaner than it has ever been in the Tennessee Valley.
    All right, thank you very much, and I will be happy to meet 
with you to go into more detail about that.
    Secretary Woodley and General Strock, you know what I am 
going to ask about, and this will close it out for my part. You 
know, last year at about this time, Secretary Woodley, a little 
bit later than this, I asked you to come to look at the 
Chickamauga Lock, and you did that, and I appreciated that. And 
you told Congressman Wamp and I at that time that you had good 
news for us, that it was going to be included in the 
President's budget. And, of course, I have told you that this 
is important to Congressman Wamp. In fact, I read that at a 
hearing of the Appropriations Committee the other day, he said 
he had three priorities: Chickamauga Lock, the Chickamauga 
Lock, the Chickamauga Lock.
    Now, to be honest with you, I wouldn't say that; I have 
more priorities than that--and I am sure he does too--but it is 
very important. It is important to him and it is important to 
me, because as I said in my statement, you are talking about 
45,000 more tractor trailer trucks on the highways of East 
Tennessee if just half of that river traffic has to be diverted 
to trucks. And I said at the hearing last year I don't think 
anybody has ever come to that lock who has said that that work 
didn't need to be done.
    Now, I would be interested to see--I know there were 271 
projects that had been funded that we started spending money 
on. I have done it kind of hurriedly, but I believe the tenth 
largest of those was the Chickamauga Lock. Now, 105 have been 
funded in this budget. Two hundred seventy-one projects, 
though, that we have already spending money on, have been 
terminated, and there is not even termination costs in the 
budget except, they tell me, for 34 of those. Now, that is a 
potential problem as well.
    But what are we going to do about that? You told us that 
you agreed that the Chickamauga Lock work needed to be done. 
Are you going to try and be an advocate for us with the OMB? 
Will you and General Strock both commit today to continuing to 
tell the people at OMB how important this Chickamauga Lock work 
is?
    Mr. Woodley. Yes, sir.
    Mr. Duncan. General Strock?
    General Strock. Yes, sir, I will. Yes, sir.
    Mr. Duncan. We have got funds. We have got funds in there 
to continue working on this right now, but I just want to tell 
you that this is a major, major concern of mine, Congressman 
Wamp, Senator Frist, and Senator Alexander, we are going to 
appreciate any assistance you give us on that. You do still 
agree that the work needs to be done, that this project needs 
to be completed?
    Mr. Woodley. Yes, sir.
    General Strock. And that is a recommendation we forwarded, 
sir.
    Mr. Duncan. All right.
    All right, thank you very much. I am going to turn the 
chair now over to Vice Chair Boustany. I am sorry, I do have to 
go to some other meetings.
    Mr. Boustany. [Presiding] Thank you. I want to show my 
appreciation and extend my welcome, as well as the new vice 
chairman of the committee, and I would like to ask if Mrs. 
Johnson has any additional questions at this time.
    Ms. Johnson. Have you completed your round?
    Mr. Boustany. No, I haven't.
    Ms. Johnson. Why don't you go ahead and complete the round?
    Mr. Boustany. Okay.
    The Chair now recognizes Mr. Connie Mack from Florida.
    Mr. Mack. Thank you, Mr. Chairman. It is good to see you 
there.
    Mr. Boustany. Thank you.
    Secretary Woodley, I would like to say hello. I don't know 
if it is just me, but this mike sounds really loud, so I will 
try to tone it down a little bit. But it is good to see you 
again, and I appreciate you down in my district and the chance 
we had to talk about some of the priorities that we have. As 
you know, my district in Southwest Florida, on one side is the 
Gulf of Mexico and our beautiful beaches, and on the other side 
is the Everglades. So you and I will be spending probably a lot 
of time together.
    But there is a specific issue that I would like to bring up 
and get some comments on from you. In the last couple weeks we 
have had a tremendous outbreak of red tide in Southwest 
Florida. In fact, in yesterday's newspaper, in the district, it 
talks about 16 manatees have died just in the last couple days 
because of the outbreak of red tide.
    And for those of you who aren't familiar with red tide, it 
is an algae bloom that releases a toxin that kills the fish, 
that makes it very difficult for people or tourists that come 
down to Southwest Florida to breathe. And you can imagine what 
it smells like with a bunch of dead fish floating around and 
floating up on shore.
    And there are lots of different theories on how the red 
tide comes about, if it is sand that is blown half way across 
the world that lands in the gulf and creates the bloom, or if 
it is the discharge from Lake Okeechobee. But I think we all 
understand that research is really what needs to be done to 
ensure that we are able to find a way to eradicate and to stop 
these algae blooms and red tide.
    I know that in fiscal year 2005 Congress included a 
provision called the Aquatic Plant Control Program, and it was 
funded at $4.5 million. And my question is has that money 
already been allocated, been spent? I have come across a couple 
of people who have worked on red tide, Moat Marine from 
Sarasota, Florida, that is a private research organization that 
has been doing a lot of research on red tide, who has suggested 
to me that they have tried to get funding and have been turned 
away. So I am just wondering if all that money has been 
utilized, and then, if so, how come it doesn't seem to be going 
towards any red tide projects.
    Mr. Woodley. Thank you very much for that question, because 
I think that our aquatic plant research deals with a large 
variety of issues, everything from the water hyacinth in our 
fresh water areas to this one you mentioned. I do understand 
that we have an effort underway on the red tide issue in 
conjunction with the University of Florida, and I will be 
getting you the details on that. I would be very interested in 
hearing from the research organizations you describe as to what 
they could bring to the effort as well, because I certainly 
agree that it is a very difficult issue and one that merits all 
of our attention.
    General Strock. If I might add, that is correct. The money 
supporting that research effort is coming from the act, so we 
do have a portion of the funding, about $480,000, as I 
understand it. But it is a one-time contract, it is not funded 
in fiscal year 2006.
    Mr. Mack. And that total amount, did that go to the 
University of Florida project?
    General Strock. Sir, we are currently negotiating that 
contract now, but we are negotiating with the University of 
Florida, and that is about the amount of money we have 
available.
    Mr. Mack. All right. I would just like to--being an alumni 
of the University of Florida, I am glad to hear that. But at 
the same time, there are research organizations around--not 
just in Florida, but Woods Hole; I am sure you are familiar 
with Woods Hole in Boston--that have done extensive research, 
and we know that if we can continue to move the research 
forward, that we will be able to identify the cause of the 
algae blooms, and then we won't have--you know, so much of what 
you do as well as to try to ensure the safety of endangered 
species like the manatees, and here we have 16 manatees dying 
in the last couple days, as compared to three deaths since the 
beginning of the year due to boater accidents. So this poses a 
much bigger risk not only to our fisheries, but also to the 
people who live in Southwest Florida and the economy of Florida 
altogether.
    One last bit on this. How can I be helpful to you to ensure 
that we get the funding we need to make sure that the research 
is being done; that we are not going to have to stop and start, 
stop and start research projects, but the research can continue 
to find solutions to red tide? What can I do to help you?
    Mr. Woodley. I think you have already been very helpful in 
that regard, congressman, and I would particularly get directly 
in touch with the organization that you mentioned, and if I can 
visit with them on my next trip to your district or if they 
have an opportunity to be in Washington at any time, I would be 
delighted to help them at the Pentagon, and we can bring in 
some of the people from the Corps and talk about how to go 
about crafting a really robust program in this regard.
    General Strock. Sir, my answer is normally just raise the 
issue with your local congressman. I am not sure how we do that 
here, but I think the secretary has got a better answer here.
    Mr. Mack. And I think, Mr. Secretary, that we will probably 
take you up on that, and the local congressman has been 
notified.
    Thank you, Mr. Chairman.
    Mr. Boustany. The gentleman's time has expired.
    The Chair now recognizes Mr. Fortuno from Puerto Rico.
    Mr. Fortuno. Thank you, Mr. Chairman.
    My questions will be addressed to General Strock. I want to 
thank you, before I begin, however, and commending you for the 
work you are doing in Puerto Rico, and your team in Puerto 
Rico, especially your chief of construction division, Mr. 
Rosado, who has been extremely helpful in getting us up to 
speed.
    The Corps has undertaken a number of flood control and 
navigation projects in Puerto Rico in recent years which were 
authorized in this committee. We appreciate both the 
committee's efforts and the excellent job that the Corps has 
performed so far. Among the Puerto Rico high priority projects 
are the Arecibo River, the Portoguesa and Bucana Rivers in 
Ponce, the Rio Puerto Nuevo project, Rio Fajardo, and the San 
Juan Harbor, as well as Canyon Martin Pena and Rio La Plata. 
Unfortunately, due mainly to budgetary constraints, many of 
these projects have fallen behind in their schedule. I am 
committed to work with the Corps and this committee to ensure 
that these high priority projects get the funding necessary to 
move forward as scheduled.
    Talking specifically about the Rio La Plata project, which 
was authorized in the Water Resources Development Act of 1990, 
the preconstruction engineering and the sign has long since 
been completed, and construction funds were appropriated in 
each of the years 1995 through 2004, yet, physical construction 
has yet to commence. The project has been on the President's 
long-term recovery action plan for Puerto Rico. A project 
corporation agreement for the project was signed in June 1995, 
following appropriation of initial construction funds. The 
initiation of the physical construction, however, has been 
delayed principally due to the fact that the non-Federal 
sponsor has not yet provided the Corps the lands required to 
award the initial construction contract.
    I am not advised, however, that these lands will be 
available by the end of this calendar year. I urge you to move 
this project to construction at the earliest possible time. My 
question will be what is your capability for this project in 
fiscal year 2006.
    General Strock. Sir, the capability for that is $8.1 
million.
    Mr. Fortuno. Okay. And when could construction commence, 
assuming the necessary lands for the initial construction 
contract are provided by the end of this calendar year?
    General Strock. Well, also assuming that the funding was 
available then, we could begin construction in fiscal year 
2006.
    Mr. Fortuno. Is there anything the State government can do 
to expedite this process?
    General Strock. The main issue is the land acquisition, 
sir. That is the main thing the State can do at this point.
    Mr. Fortuno. Okay, I am told and advised that indeed that 
has apparently been solved. So if that is the case, then we 
would certainly appreciate you moving forward.
    There is another project, which is the Rio Puerto Nuevo 
project. Rio Puerto Nuevo is located right at the heart of the 
Puerto Rico metropolitan area. Severe floodings in the area 
affect 7500 residents and 700 commercial and public structures 
valued at over $3 billion. However, for the last two years, 
construction on the project has been very slow, and at times 
the project has been halted.
    What are the reasons for halting the construction and, in 
your opinion, what can I do at the local level to facilitate 
completion of the project as scheduled?
    General Strock. Sir, I am not familiar with the specifics 
on Rio Puerto Nuevo, but I can answer that for the record.
    Mr. Fortuno. Certainly. I would appreciate that.
    Finally, I would like to ask about the Arecibo River 
project, which is another important flood control project 
authorized by the Water Resources Development Act of 1996. The 
President's budget proposes an allocation of $3.8 million for 
fiscal year 2006. What is your capability for the project in 
2006?
    General Strock. Sir, it is $7.6 million.
    Mr. Fortuno. Okay.
    Before I end, I met recently with the major of Fajardo, and 
he has municipal funds to be allocated for the Rio Fajardo 
project. He has at least $1.5 million. When you have a major 
who is willing to put up money in these difficult times, 
certainly it caught my eye. So I just wanted to let you know to 
see what we can do to hep that mayor in the eastern part of 
Puerto Rico.
    Finally, I will ask you if you could provide a list of all 
projects in Puerto Rico that are owed paybacks and the timing 
for that payment.
    General Strock. We can certainly do that, sir, and I can 
assure you that the timing will be when the project will expend 
the funds, the funds will be there. And I can give you 
specifics by project for the record.
    Mr. Fortuno. Okay. I would appreciate that.
    Thank you very much, and I yield back my time, Mr. 
Chairman.
    Mr. Boustany. The gentleman's time has expired.
    The Chair now recognizes Mr. Brown from South Carolina.
    Mr. Brown. Thank you, Mr. Chairman.
    I would like to address my questions to Secretary Woodley 
and General Strock.
    I represent the first congressional district in South 
Carolina, which involves a lot of coastline, and I guess I have 
some of the same concerns as Congressman Bishop from up in New 
York. I am really kind of put back at the Administration or 
whoever is making those decisions to do away with the 
commitment they have had all along that changed the rules as 
far as beach renourishment is concerned, and I am just 
wondering if there is some influence we might be able to offer 
to try to change that decision.
    Mr. Woodley. Certainly, we respond to advocacy at all 
levels in that regard, Congressman. As I was indicating, we 
have been able to modify the policy to make it have less of an 
impact on those cases in which we have interference with 
renourishment based on a Federal project, and we have been able 
to support work under this budget under that policy. The view 
of the Administration is that the formulation I described is an 
appropriate balance of the equities and burdens between the 
Federal Government and the localities, but that is something 
subject to judgment and subject to change of policy from time 
to time. I would encourage you to continue the very effective 
advoacy that you have initiated with me and with others in the 
Administration over the past year.
    Mr. Brown. Well, I guess I am looking for some guidelines. 
We recognize that we had a 65:35 ratio or agreement. I know 
they tried to change two years ago to give 35 support from the 
Federal Government and 65 support from the local government, 
and we were able to change that around. It now looks like to me 
they are just backing off completely. I know you said the berms 
is sort of a permanent thing, then after that you leave it to 
the locals. But I think it has been determined in our 
particular area, where storms are certainly a threat all the 
time, if a renourished beach certainly attributes to less storm 
surge, less storm damage than one that is not renourished, so 
that is a major concern of ours. And we certainly addressed 
that with the FEMA folks too, because we feel like in their 
preventive arena that this would certainly fall within their 
category. So any support or any direction you might be able to 
give me and the other guys that represent the coast I think 
would certainly be of some benefit to all of us.
    Another area that I am very much concerned about--and we 
have talked about this in the past--is the commitment to the 
intercostal waterway. We have an intercostal waterway that goes 
along the coast that is being neglected. I notice in this 
particular budget request it is only $467,000 for South 
Carolina, and by our accounts it is going to take some $6 
million to be able to maintain the openness of that intercostal 
waterway, and I just wondered what is your position on that.
    Mr. Woodley. Atlantic Intercoastal Waterway in that part of 
the system has been neglected for some time, and the 
justification is that the passage of commercial traffic has 
substantially declined over the years. I don't think that 
neglect is the right answer to that, so I have asked in this 
budget for a special allocation of $1,500,000,000 to be used by 
the Corps to study ways in which to either find appropriate 
justification to allow the support for those or to find ways to 
leverage Federal resources with other interested parties to 
maintain those waterways, which I am very sorry to see in a 
state of neglect. They are in a state of neglect in my State of 
Virginia as they are in your State of North Carolina.
    Mr. Brown. And you know, Mr. Secretary, I guess the greater 
neglect is going to be certainly an influence on the amount of 
traffic that is going to be able to support, because eventually 
in some places it is already filled in to the point where you 
can not get traffic through. So that is a major concern.
    Another concern, if my time is still available, is the 
Georgetown Harbor. I know we feel like it would take about $6 
million to maintain that channel, and I noticed only $1.3 
million was recommended. Could you help me on that?
    Mr. Woodley. No, sir, I am afraid I am not familiar with 
the details on Georgetown Harbor, and I will have to return to 
you on that, unless the chief is aware of it.
    General Strock. No, sir, I am not familiar with the 
details.
    Mr. Brown. Well, we had the steel mill go bankrupt, and now 
it is back in operation, and we certainly need to keep that 
channel open to maintain supplies coming and going there.
    One little issue of a personal note is that the Corps 
office in Charleston looked like to me the realignment is to 
shift the resources from Charleston to Wilmington or down to 
Savannah. Could you enlighten me on that? We feel like 
Charleston, with a major port, certainly ought to have a major 
presence of the Corps. We have got nice facilities there at the 
Citadel. I was just amazed at the new direction that the Corps 
is going. Could you elaborate no that?
    General Strock. Yes, sir. As you know, the Corps of 
Engineers at the district level is a project-funded 
organization, so they can only support the workload that the 
projects they oversee brings to them. So the workforce is 
related to workload and, unfortunately, the workload in the 
Charleston district is decreasing. We have recently moved to a 
regional business operating process, where when we recognize it 
will still be a requirement for those kinds of skills in 
Charleston, we are concentrating capabilities in other 
districts that have the workload that justifies their presence 
that will be available to Charleston. There is no intention to 
move people and to do away with jobs in Charleston at this 
point. Any shifts in the mission will be accomplished through 
attrition. And we will continue to use the people in 
Charleston, to the degree we can, through virtual means, 
through technology to keep them engaged effectively.
    Mr. Brown. All right, thank you very much.
    Mr. Boustany. The Chair now recognizes my friend and 
colleague from Louisiana, Mr. Baker.
    Mr. Baker. Thank you, Mr. Chairman.
    Secretary Woodley, I know you probably have no personal 
knowledge of the facts which I am about to recite, but I wanted 
to get on the record and have the matter brought to your 
attention for further review.
    Under the rivers and harbor navigable waterways, there are 
a system to determinations required by statute and by Federal 
court precedent to determine navigability, which then enables 
the court to exert its jurisdictional control over matters in 
that water body. The criteria relate to the responsibilities of 
the division engineer and a whole set of determinations which 
are triggered in a very lengthy process which I am sure you are 
aware of and I will not bore the committee by reciting. The act 
goes on to say that determinations of navigability are not 
solely conclusively made by administrative agencies, but in 
concert with judicial precedent. In light of that, findings 
today indicate that ebb and flow of tide, current or historic 
utilization of the waterway for interstate or foreign commerce 
and that later actions on the water body that do not enable 
transportation do not vacate the finding of navigability.
    But the point that I want to make is a body of water 
changes from navigable to non-navigable at a point of 
demarcation, in reading from the statute it appears major fall, 
rapids or other place where there is a marked decrease in the 
navigable capacity of the river. I want to add a paragraph to 
that, because the case about which I am to make reference, 
where you have a lot of dirt and trees growing on it, that is 
usually an impediment to navigation.
    In my view, for the first time in the act's 100 year 
history, the court ha snow invoked Section 10 on an inland area 
that has no adjacent waterway, that is questionable in its 
determination as being a navigable waterway, but we will see 
that. What has happened is a timbering operation with literally 
millions of dollars of assets on the ground has been issued a 
cease and desist order not to reclaim its assets and to be 
precluded from further timbering activity going forward based 
on what I believe to be a determination not consistent with the 
regulatory requirements. And my request of the agency is to 
dispatch, in accordance with the regulations, a review of this 
circumstance, and I hope that the finding will not conclude 
that inland properties are navigable waterways. It would be a 
precedent of great scope and consequence; we would have to buy 
our firewood in Canada. I mean, it is going to be devastating.
    So it is a sincere policy question. I have no interest in 
nor concern about the timbering operation itself, but the 
application of the Section 10 standard in this case seems to be 
a bit of overreach. I thank you.
    Mr. Boustany. Thank you, sir.
    The gentleman from Mississippi, Mr. Taylor, is recognized 
for five minutes.
    Mr. Taylor. Thank you, Mr. Chairman, and I thank all you 
gentlemen for sticking around this long.
    General Strock, number one, I want to thank the Corps for 
the tremendous cooperation we have had in South Mississippi on 
maintaining our navigable waterways, and in particular for the 
work you have done on some environmental restoration projects. 
You have actually added to a State-owned island by the name of 
Deer Island; I think you added 40 acres using the dredge 
material from the Blassie Ship Channel recently. To that point, 
one of the things that has prevented similar type opportunities 
from taking place has been a requirement that states if there 
is additional cost to doing beneficial use with your dredge 
material, as opposed to the cheapest way of disposing it, if 
there is additional cost, I think 20 to 25 percent has to come 
from a non-Federal source.
    I used to be in city government, State government. I think 
most everybody here has had a similar experience. If you are 
going to ask a city or a county that has got people telling 
them they have potholes to be fixed, sewer and water lines to 
be fixed, streets that need to be policed, etc., etc., if you 
are going to tell them that the only way you can do something 
good with that dredge material is to take that money out of 
police protection, fire protection, fixing streets, it is not 
going to happen, I regret to say. And I can not blame the local 
officials who decide that way, because they would probably get 
beat in the next election if they did.
    With that in mind, there are certainly some Federal 
benefits to these programs. Obviously, the environment is 
better the more marsh we have out there. We have an agency 
called the Environmental Protection Agency. Actually, the seas 
are cleaner with more marsh out there. We have groups called 
the National Marine Fisheries that are interested in clean 
seas, and no one is interested in clean seas. So to that point, 
what would be your response to the thought that we change that 
language from a non-Federal sponsor to a non-Corps sponsor, 
which could include the EPA, which could include NOAA, which 
could include NIMPS? If doing these things is good for the 
environment, and if NIPS or NOAA or the EPA can acquire 
additional acreage of marsh for 20 cents on a dollar, then they 
are way ahead, at least to my way of thinking; and I think we 
would see a lot more of these projects taking place. They all 
have budgets for things like that. I think it would be a way of 
stretching their budget. And hopefully these good things that 
you are doing in Mississippi--and I understand you are also 
doing them in some other States--we can do them more 
frequently.
    Again, your thoughts on that, because I am obviously 
fishing for some help on this, and any positive reinforcement 
we could get might help me convince my colleagues to do that.
    Mr. Woodley. Congressman, I think that is a very 
interesting concept, well worthy of exploration. I don't have a 
position on it to express to you today, but I am delighted to 
work with you on that going forward. Certainly that is the kind 
of thing that we want, to have incentives in place and not 
disincentives for beneficial use of dredge material, and that 
is entirely consistent with our policy.
    Mr. Taylor. The other thing that I would ask you is I 
understand that the Louisiana delegation is pushing for a 
rather large coastal restoration project, and I want to let you 
know that what is good for Louisiana in that instance is also 
very good for Mississippi. But to that end, I was curious if 
the Corps has given much study to the opportunity that will 
eventually take place in two places. Number one, there is an 
existing structure at the Violet Canal which already diverts 
water from the Mississippi River into the Mississippi River 
Gulf Outlet, which in turn spills into Lake Borgne. It is a 
fairly small structure. But my experience in trying to get 
things done, particularly with the permitting process, I found 
it a heck of a lot easier to grow an existing permit than to 
start from scratch with an idea.
    So with the goal of trying to get some of that Mississippi 
River water into Lake Borgne, into the Mississippi River Gulf 
Outlet, has the Corps explored the opportunity or the 
possibility of making the Violet Canal control structure 
larger, since we know that the Mississippi River Gulf Outlet 
has been a major cause of salt water intrusion and, therefore, 
the loss of wetlands?
    Second thing that I would ask you to at least give me your 
thoughts on is some day the locks at the industrial canal 
adjacent to the Coast Guard Basin New Orleans will be replaced. 
I realize that some day keeps getting kicks down the line, but 
some day it is going to happen. Again, I see an opportunity 
there of putting some sort of a flow control structure at the 
industrial canal locks that would get some fresh water from the 
Mississippi River into the industrial canal which flows into 
the Mississippi River Gulf Outlet and, therefore, into Lake 
Borgne and the Mississippi Sound. Have you explored that, since 
the Nation already owns the property adjacent to that, which is 
the Coast Guard base, which is going to come down in a few 
years anyway, and you already are, again, dealing with 
waterways that have already been built at considerable expense 
to the taxpayer and already in use, as opposed to digging a new 
canal at Bonnie Carrier or some other place?
    Mr. Woodley. Let me ask if the chief is aware of whether 
that has specifically been studied. I know we have a very 
comprehensive study that is underway for any number of options 
to be looked at in this regard, and we have asked the 
Congress--the Congress approved $8 million in the current 
fiscal year. An additional $20 million is in our request to 
continue to feasibility level studies of just this type of 
concept, and I certainly would hope that both of these would be 
looked at alternatives as we go forward in crafting the most 
cost-effective and least environmentally detrimental or most 
environmentally beneficial plans.
    Mr. Taylor. Mr. Chairman, one last, if you don't mind.
    We have one of the more popular programs in the Corps, the 
592 program, where you have assisted local communities with 
their wastewater and water infrastructures. I have a very good 
idea of what the request is just from South Mississippi, and it 
is in the hundreds of millions of dollars. For the record--I 
don't expect you to know this--I would be curious what your 
requests are on a nationwide basis, because I have got to 
believe it is enormous in the amount that we are actually 
funding is fairly miniscule compared to the requests from the 
local communities. But if you could get that for the record, I 
would very much appreciate it.
    Thank you, Mr. Chairman.
    Mr. Boustany. The gentleman's time has expired.
    Before I ask my questions, and I have just a couple, I 
would like to ask the ranking member if she would like to make 
any comments or ask any further questions.
    Ms. Johnson. Yes, thank you. I do have a couple of 
questions.
    General Strock, your testimony refers to 13 projects that 
will be completed with $48.9 million requested in this budget, 
and this is a revision to the budget documents that referred to 
a request of $114 million to complete 20 projects. Why did this 
number change and what were the 20 projects and what are the 13 
projects, and where did the $65.1 million go?
    General Strock. Well, certainly, I think the delineation of 
the projects is best left for the record. As far as the budget 
decision to move money around, I would also like to do that for 
the record.
    Ms. Johnson. Okay, I would like to get a little bit further 
explanation in writing later, if you don't mind.
    Let me express my appreciation for the good work that the 
Corps of Engineers actually do. And I want to offer my 
assistance or help in any way I can, short of changing parties. 
I have listened this entire committee, and it is very clear to 
me that decisions are very partisan when they are made. This is 
not a real partisan committee, and we function, and if you can 
justify that not being, I would like to hear it.
    Mr. Woodley. Well, I can only say, Ms. Johnson, that I have 
participated now for two years in the process that has resulted 
in the recommendations, and I don't recall a single expression 
of partisan feeling or animus in the course of that. And I 
would be very concerned if I saw any patterns that developed in 
that regard or that could be demonstrated in that regard, and I 
would look into them and see what could be done to remedy that, 
because my impression of this program is that it is a program 
that is for all the Nation, in every State in the territories, 
in the commonwealth of Puerto Rico. Wherever the Nation needs 
water resource development, that is, in the area of flood 
control, storm damage reduction, navigation or aquatic 
ecosystem restoration, that is where this program needs to 
concern itself, and it does not need to concern itself with 
partisan matters in any way.
    Ms. Johnson. I would agree with you totally, but I have 
been sitting here this whole meeting like you have, and it is 
very apparent when you hear results and expectations. All of 
the disappointments pretty much have been expressed on the 
Democratic side. And I just imagine that if we took a poll, 
everybody in this audience has noticed it. And I am not 
accusing you of it being your fault; maybe it is OMB. I don't 
know who it is, but it is very apparent to me. And if I can 
help you understand that better or help solve it, I am offering 
my services. Thank you very much.
    Mr. Boustany. Thank you.
    Secretary Woodley and General Strock, I have a question for 
you. My district is Southwest Louisiana, the seventh 
congressional district, and we have a port down there, the Port 
of Lake Charles, which is a very significant port; it has 
national implications, and the Cowcashu Ship Channel has an 
authorized depth of 40 feet and a width of 400 feet. This port 
is critically important. Several oil refineries depend on this 
port and this one channel for crude oil supplies. Certainly, 
Cowcashu is also home to the Nation's largest LNG terminal, 
which is currently undergoing expansion to double its capacity, 
and there are several additional LNG facilities planned in the 
near future. My concern is that we have not been able to 
maintain these authorized specifications on this channel and, 
as a result, the port has been forced oftentimes to decide 
whether to maintain the depth or the width of the channel. 
Currently, we are at about 280 feet, maybe to 300 feet, in 
width. LNG tankers take up 150 feet leaving very little room on 
the sides. This presents itself as a problem.
    Currently, it is at least expected that it will take about 
$17 million to bring this back to the authorized 
specifications, plus an additional $15 million annually to 
maintain it. The current request in the budget is $9 million. 
Do you consider this a priority? Do you have any suggestions as 
to where we might go with this?
    General Strock. Well, sir, based on an explanation of how 
we arrived at our budgeting numbers, the fact that we do have 
$9 million indicates that it certainly is a priority. It 
appears to be inadequate, though, to get as far as we would 
like to get, but we recognize the importance or the channel, 
certainly. It is a very high use, very important channel to the 
economy and to the Nation.
    Mr. Boustany. Yes. It certainly serves the Nation's energy 
needs. In fact, I think in the 1990s, when there was a problem 
that obstructed shipping flow through that channel, the Clinton 
Administration had to open up oil reserves for the benefit of 
the Country. So I think this should be a priority. I would hope 
you would give it more consideration.
    Let me just close by saying a major concern for all of us 
down in Louisiana is the rapidly eroding coastline. Some others 
here today have mentioned it briefly. This is a national 
problem. It truly is a national problem. And I hope, as we move 
forward in the Wooda reauthorization, that it will be given 
some due consideration. And I would welcome any comments that 
you might have on this.
    Mr. Woodley. Yes, sir. We and the Administration could not 
agree more with that point. The chief and governor of 
Louisiana, at the end of January, have issued and forwarded to 
my office the draft of the chief's report, which is a 
feasibility level study for programmatic authorization of the 
measures designed to make addressing the issue you describe a 
national priority in the area of ecosystem restoration, and 
that is something we fully support. I will be examining the 
report as it comes through my office and working within the 
Administration to prepare that for authorization at the 
earliest possible time.
    Mr. Boustany. I thank you.
    Gentlemen, I want to thank all of you for your testimony on 
behalf of Chairman Duncan and myself and the ranking member. 
Thank you for your willingness to come to the Hill and testify. 
Thank you for your patience, and thank you for your answers to 
our questions.
    The meeting stands adjourned.
    [Whereupon, at 12:43 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0873.004
    
    [GRAPHIC] [TIFF OMITTED] T0873.005
    
    [GRAPHIC] [TIFF OMITTED] T0873.006
    
    [GRAPHIC] [TIFF OMITTED] T0873.007
    
    [GRAPHIC] [TIFF OMITTED] T0873.008
    
    [GRAPHIC] [TIFF OMITTED] T0873.009
    
    [GRAPHIC] [TIFF OMITTED] T0873.010
    
    [GRAPHIC] [TIFF OMITTED] T0873.011
    
    [GRAPHIC] [TIFF OMITTED] T0873.012
    
    [GRAPHIC] [TIFF OMITTED] T0873.013
    
    [GRAPHIC] [TIFF OMITTED] T0873.014
    
    [GRAPHIC] [TIFF OMITTED] T0873.015
    
    [GRAPHIC] [TIFF OMITTED] T0873.016
    
    [GRAPHIC] [TIFF OMITTED] T0873.017
    
    [GRAPHIC] [TIFF OMITTED] T0873.018
    
    [GRAPHIC] [TIFF OMITTED] T0873.019
    
    [GRAPHIC] [TIFF OMITTED] T0873.020
    
    [GRAPHIC] [TIFF OMITTED] T0873.021
    
    [GRAPHIC] [TIFF OMITTED] T0873.022
    
    [GRAPHIC] [TIFF OMITTED] T0873.023
    
    [GRAPHIC] [TIFF OMITTED] T0873.024
    
    [GRAPHIC] [TIFF OMITTED] T0873.025
    
    [GRAPHIC] [TIFF OMITTED] T0873.026
    
    [GRAPHIC] [TIFF OMITTED] T0873.027
    
    [GRAPHIC] [TIFF OMITTED] T0873.028
    
    [GRAPHIC] [TIFF OMITTED] T0873.029
    
    [GRAPHIC] [TIFF OMITTED] T0873.030
    
    [GRAPHIC] [TIFF OMITTED] T0873.031
    
    [GRAPHIC] [TIFF OMITTED] T0873.032
    
    [GRAPHIC] [TIFF OMITTED] T0873.033
    
    [GRAPHIC] [TIFF OMITTED] T0873.034
    
    [GRAPHIC] [TIFF OMITTED] T0873.035
    
    [GRAPHIC] [TIFF OMITTED] T0873.036
    
    [GRAPHIC] [TIFF OMITTED] T0873.037
    
    [GRAPHIC] [TIFF OMITTED] T0873.038
    
    [GRAPHIC] [TIFF OMITTED] T0873.039
    
    [GRAPHIC] [TIFF OMITTED] T0873.040
    
    [GRAPHIC] [TIFF OMITTED] T0873.041
    
    [GRAPHIC] [TIFF OMITTED] T0873.042
    
    [GRAPHIC] [TIFF OMITTED] T0873.043
    
    [GRAPHIC] [TIFF OMITTED] T0873.044
    
    [GRAPHIC] [TIFF OMITTED] T0873.045
    
    [GRAPHIC] [TIFF OMITTED] T0873.046
    
    [GRAPHIC] [TIFF OMITTED] T0873.047
    
    [GRAPHIC] [TIFF OMITTED] T0873.048
    
    [GRAPHIC] [TIFF OMITTED] T0873.049
    
    [GRAPHIC] [TIFF OMITTED] T0873.050
    
    [GRAPHIC] [TIFF OMITTED] T0873.051
    
    [GRAPHIC] [TIFF OMITTED] T0873.052
    
    [GRAPHIC] [TIFF OMITTED] T0873.053
    
                                    

</pre></body></html>
